Report No. D-2008-045   February 7, 2008




   Controls Over the TRICARE Overseas
            Healthcare Program
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACH                   Automated Clearinghouse
ISOS                  International SoS
PCDIS                 Purchased Care Detail Information System
PGBA                  Palmetto Government Benefits Association
PPP                   Purchasing Power Parity
QMD                   Quantitative Methods Division
SOFA                  Status of Forces Agreement
TGRO                  TRICARE Global Remote Overseas
TMA                   TRICARE Management Activity
WPS                   Wisconsin Physician Services
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 22202-4704




                                                                           February 7, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)

SUBJECT: Report on Controls Over the TRICARE Overseas Healthcare Program
         (Report No. D-2008-045)


     We are providing this report for review and comment. We considered your
comments on a draft of this report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments of the Assistant Secretary of Defense (Health Affairs) were partially
responsive. We request additional comments from the Assistant Secretary of Defense
(Health Affairs) on the material management control weaknesses, potential monetary
benefits, and Recommendations Al.b., Al.d., A7., B.3., and B.5. by March 7,2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audyorktown@dodig.mil. Copies of the management comments
must contain the actual signature of the authorizing official. We cannot accept the
/ Signed / symbol in place of the actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Michael A Joseph at (757) 872-4815, extension 223, or Mr. Scott J. Grady at
(757) 872-4759. See Appendix G for the report distribution. The team members are
listed inside the back cover.



                                   ~achII ~
                                      Acting Assistant Inspector General
                                      Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2008-045                                                    February 7, 2008
  (Project No. D2005-D000LF-0267.000)

       Controls Over the TRICARE Overseas Healthcare Program

                                Executive Summary

Who Should Read This Report and Why? Policymakers and senior managers
involved in the management of medical claims should read this report to gain an
understanding of the potential for improper payments for health care provided to overseas
DoD beneficiaries.

Background. This is the second of two reports addressing controls at TRICARE
Management Activity over payments made for health care services rendered overseas.
This report covers the accuracy of TRICARE overseas claims payments and the
adequacy of and need for additional price caps for overseas health care. TRICARE
Management Activity is a DoD field activity responsible for managing the TRICARE
program, including contracting for claims-processing services to support the military
health system. The Overseas Program supports approximately 479,000 beneficiaries
overseas. Total health care costs for the Overseas Program were $187.3 million in FY
2005 and $210.9 million in FY 2006, while administrative contract costs for the Overseas
Program were $21.3 million in FY 2005 and $25.3 million in FY 2006.

Results. We performed this audit to evaluate controls over the TRICARE payments
made for health care services provided overseas to TRICARE beneficiaries. Generally,
TRICARE Management Activity pays overseas health care claims as billed. Government
contractors responsible for processing TRICARE overseas health care claims made
inaccurate payments (duplicate payments and overpayments) to host-nation providers and
to TRICARE beneficiaries. Based on a statistical sample, we estimate TRICARE
Management Activity made $14.6 million in duplicate payments and overpayments
during FY 2004 and FY 2005 for health care rendered to TRICARE beneficiaries. We
project that TRICARE Management Activity could put about $29.7 million of Defense
Health Program funds to better use during the execution of the FYs 2008 through 2013
Future Years Defense Plan by strengthening internal controls, establishing sound contract
surveillance plans, and improving recoupment procedures (finding A).

TRICARE Management Activity plans to revise existing Philippines price caps and to
implement price caps in Panama. We believe TRICARE Management Activity could
further control health care costs by:

   •   establishing price caps for professional services and hospital inpatient claims in
       countries with high dollar volumes of claims and in countries that experience
       significant increases in health care costs;

   •   ensuring that all TRICARE claims, including TRICARE Global Remote Overseas
       claims, filed in a given country are subject to the same price caps; and
   •   implementing price caps in Guam and the U.S. Virgin Islands that are based on
       those used by the Centers for Medicare & Medicaid Services.

Proceeding with the price cap initiatives in the Philippines and Panama and expanding
similar price caps in other countries could result in TMA annually putting at least
$16 million in Defense Health Program funds to better use, totaling $96 million during
the execution of FYs 2008 through 2013 Future Years Defense Plan (finding B). See
Appendix E for the Summary of Potential Monetary Benefits. See the Findings section
of the report for the detailed recommendations.

Management Comments and Audit Response. The Assistant Secretary of Defense
(Health Affairs) agreed with most of the recommendations to strengthen internal controls
over duplicate payments and overpayments. The Assistant Secretary fully agreed with
establishing sound contract surveillance plans and improving recoupment procedures.

Additionally, the Assistant Secretary fully agreed with implementing price caps for
professional and institutional payments in the Philippines and Panama, and implementing
those caps for all claims, including TRICARE Global Remote Overseas claims. The
Assistant Secretary agreed with implementing price caps in other countries; however, the
actions planned did not fully satisfy the intent of the recommendation. Moreover, the
Assistant Secretary did not fully agree with implementing price caps in Guam and the
U.S. Virgin Islands based on those used by the Centers for Medicare & Medicaid
Services. The Assistant Secretary did not comment on the material management control
weaknesses or potential monetary benefits.

We believe all the recommendations in the report remain valid, and we request the
Assistant Secretary to provide additional comments on the final report by March 7, 2008.
Based on additional information provided by management, we changed the monetary
benefits associated with duplicate health care payments and reduced the total potential
monetary benefits in finding A from $43.8 million to $29.7 million. For more details on
the reduction in potential monetary benefits, see the Management Comments on the
Finding and Audit Response section in finding A. See Appendix F for a listing of all
recommendations on which we considered management comments responsive and those
requiring additional comments. We also request additional comments on the material
management control weaknesses and the potential monetary benefits cited in the report.
See the Findings sections of the report for details of management comments on each
recommendation and the audit response. See the Management Comments section of the
report for the complete text of management comments.




                                           ii
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               1

Review of Internal Controls                                              1

Findings
     A. Accuracy of Claims Payments                                      3
     B. Price Caps on Payments of Claims for Professional Services and
          Hospital Inpatient Charges                                     19

Appendixes
     A. Scope and Methodology                                            34
          Prior Coverage                                                 38
     B. TRICARE Overseas Payments Made by Check                          40
     C. Criteria                                                         43
     D. Claims-Processing Contracts for the Overseas Program             45
     E. Summary of Potential Monetary Benefits                           48
     F. Status of Management Comments                                    49
     G. Report Distribution                                              51

Management Comments
     Assistant Secretary of Defense (Health Affairs)                     53
Background
     This is the second of two reports addressing controls at TRICARE Management
     Activity (TMA) over payments made for health care services rendered in overseas
     locations. This report covers the accuracy of TRICARE claims payments and the
     adequacy of and need for additional price caps for overseas health care. This
     audit was suspended on October 19, 2005, and resumed on April 17, 2006, while
     the audit team provided assistance to the U.S. Attorney’s Office, Western District
     of Wisconsin, on the investigation of TRICARE fraud in the Philippines.

     Military Health System. The Office of the Assistant Secretary of Defense
     (Health Affairs) exercises authority, direction, and control over DoD health
     facilities, funding, personnel, programs, and other medical resources. TMA is a
     DoD field activity responsible for managing the TRICARE program under the
     authority and direction of the Assistant Secretary of Defense (Health Affairs).
     TMA is responsible for contracting for claims-processing services necessary to
     support TRICARE and the military health system.

     TRICARE Overseas Program. The TRICARE Overseas Program (Overseas
     Program) is the DoD managed health care program for care outside the
     continental United States. The Overseas Program supports approximately
     479,000 beneficiaries overseas. Six contracts support the Overseas Program with
     contractors processing more than 1 million Overseas Program claims per year.
     Total health care costs for the Overseas Program were $187.3 million in FY 2005
     and $210.9 million in FY 2006, while administrative contract costs for the
     Overseas Program were $21.3 million in FY 2005 and $25.3 million in FY 2006.
     See Appendix D for costs broken out by contract.


Objectives
     Our overall audit objective was to evaluate administrative controls over the
     Overseas Program. Specifically, we assessed the accuracy of claims payments,
     the adequacy of existing price caps in the Overseas Program, and the need for
     additional price caps. We also reviewed internal controls related to the overall
     objective. See Appendix A for a discussion of the scope and methodology and
     prior coverage related to the objectives. See Appendix B for a discussion of the
     use of electronic funds transfer in the Overseas Program. See Appendix C for
     legislation and TRICARE policies related to the Overseas Program.


Review of Internal Controls
     DoD Instruction 5010.40, “Manager’s Internal Control (MIC) Program
     Procedures,” January 4, 2006, requires DoD organizations to implement a
     comprehensive system of internal controls that provides reasonable assurance that
     programs are operating as intended and to evaluate the adequacy of the controls.



                                         1
Scope of the Review of Internal Controls. We reviewed the internal control
procedures for the Overseas Program. We specifically reviewed the accuracy of
the claims payments, adequacy of price caps, and risk of fraudulent and abusive
activity within the Overseas Program.

Adequacy of Internal Controls. We identified material internal control
weaknesses in the Overseas Program, as defined by DoD Instruction 5010.40.
TMA controls were inadequate to ensure the accuracy of claims payments or that
TRICARE is not excessively billed for services rendered. Recommendations A.1.
through A.7., if implemented, will reduce the likelihood of erroneous claims
payments. Recommendation B.1., if implemented, will reduce excessive billing.
We estimate that implementing the recommendations in this report will result in
potential monetary benefits of $125.7 million during execution of the FYs 2008
through 2013 Future Years Defense Plan (see Appendix E for the Summary of
Potential Monetary Benefits).

Prior Audit Report. We also identified a material internal control weakness for
TMA in our first audit report on the Overseas Program. Report
Number D-2006-051, “TRICARE Overseas Controls Over Third Party Billing
Agencies and Supplemental Health Insurance,” February 10, 2006, found TMA
controls did not adequately ensure that third-party billing agencies were properly
submitting TRICARE overseas claims. In addition, TMA had not established
procedures for detecting unlawful waivers of cost shares and deductibles. TMA
did not agree that weaknesses identified in the prior report were material. We
deferred resolution of the identified internal control weakness until issuance of
this report. The combination of control weaknesses identified in this report and
the first report further supports the materiality of the conditions identified. We
request that the Assistant Secretary of Defense (Health Affairs) comment on the
material internal control weaknesses in this final report.




                                     2
           A. Accuracy of Claims Payments
           Government contractors responsible for processing TRICARE overseas
           health care claims made inaccurate payments (duplicate payments and
           overpayments) to host-nation providers and to TRICARE beneficiaries.
           The inaccurate payments occurred because claims processors lacked
           necessary internal controls and because TMA did not develop adequate
           and timely contract surveillance plans. Further, TMA needed to improve
           procedures used to recoup duplicate and overpayments. As a result, we
           estimate TMA made inaccurate payments totaling $14.6 million for
           overseas health care claims during FY 2004 and FY 2005. We project
           TMA could put $29.7 million of Defense Health Program funds to better
           use during the execution of the FYs 2008 through 2013 Future Years
           Defense Plan by strengthening internal controls, establishing sound
           contract surveillance plans, and improving recoupment procedures.


Contractors Processing Overseas TRICARE Claims
    In August of 2004, traditional foreign-claims processing became part of the
    TRICARE Managed Care Support Contract, South Region. Traditional foreign
    claims are claims for health care provided to TRICARE beneficiaries who reside
    overseas in nonremote locations except for active-duty Service members and
    family and Medicare-eligible individuals living in Puerto Rico. Humana Military
    Health Services, the prime contractor for the TRICARE South Region,
    subcontracted its foreign-claims-processing responsibility to Wisconsin Physician
    Services (WPS). WPS is commonly referred to as the foreign-claims-processing
    contractor because it processes most overseas claims, approximately 687,000 out
    of more than 1 million claims processed per year. In addition to traditional
    foreign claims processed under the TRICARE South Region contract, an overseas
    claim may be processed under five other contracts. The type and location of the
    beneficiary determine jurisdiction over a specific claim. Appendix D details the
    claim jurisdictions and the contractors responsible for processing claims.


Accuracy of Claims Payments
    Government contractors responsible for processing TRICARE overseas health
    care claims made inaccurate payments (duplicate payments and overpayments) to
    host-nation providers and to TRICARE beneficiaries. We identified and
    interviewed participating providers in the three TRICARE overseas regions and
    found claims-processing payment errors in all three. To determine the magnitude
    of inaccurate claims payments, we selected a statistical sample of overseas health
    care claims. Our statistical sample consisted of 347 episodes of overseas care
    (526 claims) from 39 countries with claims processed under each of the six
    Overseas Program processing contracts. We obtained and reviewed the provider
    bills submitted for each paid claim and evaluated the payment made to the
    provider or beneficiary for accuracy. Our statistical sample identified
    24 duplicate payments and 26 overpayments. From the statistical sample results,

                                         3
           we estimate TMA made $14.6 million in duplicate payments and overpayments
           during FY 2004 and FY 2005 for health care rendered to TRICARE beneficiaries.
           See Appendix A for details of the statistical sample universe and methodology.

           Although 72 percent of the statistically sampled claims were processed under the
           TRICARE South Region subcontract, we identified errors in processing under
           five of the six existing contracts for foreign claims processing. The errors
           included payment for claims with third-party liability, duplicate claims,
           administrative charges, and mathematical errors. We also identified payment
           errors resulting from contractors not applying required cost containment
           measures, and we identified a potential conflict of interest.

           Duplicates. On the basis of the 24 duplicate payments identified in the statistical
           sample, we estimate TRICARE overseas-claims-processing contractors made
           duplicate payments totaling $7.5 million in FY 2004 and FY 2005. According to
           the foreign-claims-processing contractor, in FY 2005 and FY 2006, it was
           unsuccessful in recouping about 38 percent of the duplicate payments made.
           Using that recoupment rate, we project that TMA could put $1.4 million1 of
           Defense Health Program funds to better use each year and $8.5 million during the
           execution of the FYs 2008 through 2013 Future Years Defense Plan by
           strengthening controls over duplicate payments. In addition to selecting our
           statistical sample, we chose providers to interview in Panama and Germany.
           Eleven of thirty-five providers and third-party billing agencies we interviewed
           stated they received more than 160 duplicate payments for health care services
           provided to TRICARE beneficiaries. After informing TMA of the possible
           duplicate payments, and months after our return from our visit to Panama, one of
           the hospitals complained of continued duplicate payments and forwarded three
           examples to our attention. We followed up on the largest example and found the
           claim was assigned four different claim numbers, processed eight times over a
           span of 3 years, and resulted in a duplicate payment of more than $34,000 to the
           provider. In April 2007 we met with representatives of the claims processor, who
           agreed the processing of this claim resulted in a duplicate payment totaling about
           $34,000 and initiated action to recoup the payment. In May 2007, TRICARE
           received reimbursement from the provider for the full amount.

           Overpayments. On the basis of the 26 overpayments identified in the statistical
           sample, we estimate TRICARE overseas-claims-processing contractors made
           inaccurate payments totaling $7.1 million in FY 2004 and FY 2005. In addition
           to the inaccuracies identified through our statistical sample, a review of claims
           during Phase One of the audit identified overpayments by one of the
           overseas-claims-processing contractors that had not been previously reported.
           During Phase One, we provided assistance to the Defense Criminal Investigative
           Service, reviewing approximately 600 claims submitted by the Health Visions
           Corporation. We identified substantial overpayments made by one of the


1
    We divided duplicate payments of $7,496,907 (rounded to $7.5 million in the body of the report) in
    FY 2004 and FY 2005 by 2 years and arrived at $3,748,453.50 per year. We applied the unsuccessful
    recoupment percentage of 38 percent to $3,748,453.50 and arrived at $1,424,412.33 (rounded to
    $1.4 million in the body of the report). To obtain the 6 -year figure, we multiplied the amount by six and
    arrived at $8,546,473.98 (rounded to $8.5 million in the body of the report).



                                                       4
     claims-processing contractors to Health Visions (whose former chief executive
     officer pleaded guilty to committing fraud against TRICARE).

     Of the claims reviewed during Phase One, we identified six for which the
     contractor paid $197,704 even though the billed amount totaled only $36,883,
     resulting in overpayments totaling $160,822, or 436 percent, as shown in Table 1.

                      Table 1. Phase One Overpayments Identified

                                    Amount of
                                   Claim Filed
                        Year of     by Billing    Amount Paid by
   Claim Number         Service      Agency         TRICARE           Overpayment
  2003343PH03623         2003      $ 13,933.62     $ 133,933.62        $ 120,000.00
  2004056PH04142         2003         4,145.88         6,218.82            2,072.94
  2004057PH01758         2003         6,323.68        12,647.36            6,323.68
  2004131PH03409         2003         5,554.21        23,534.30           17,980.09
  2003161PH02579         2002         5,790.51         9,402.09            3,611.58
  2002277PH02593         2002         1,134.71        11,968.16           10,833.45
   Total                           $ 36,882.61     $ 197,704.35        $ 160,821.74



Internal Controls, Contract Oversight, and Recoupment
   Procedures
     The inaccurate payments occurred because claims processors lacked necessary
     internal controls and because TMA did not develop adequate and timely contract
     surveillance plans. Further, TMA needed to improve procedures used to recoup
     duplicate and overpayments. Our statistical sample of 347 episodes of care
     (526 claims) contained 24 duplicate payments and 26 overpayments. According
     to the foreign-claims-processing contractor, it has experienced limited success in
     recouping inaccurate payments made to beneficiaries and providers: its rate was
     62 percent for FYs 2005 through 2006. Moreover, none of the draft contract
     surveillance plans for the primary foreign-claims-processing contracts included
     performance measures to address the accuracy of claims payments for overseas
     health care.

     Internal Controls. TMA needed additional internal controls to prevent
     overseas-claims-processing contractors from making duplicate payments and
     overpayments on TRICARE claims. Existing controls over duplicate payments
     were detective in nature rather than preventative. Moreover, additional controls
     were needed to reduce the likelihood of overpayments resulting from paying
     administrative charges that should not have been paid as well as other
     payment-processing errors.

               Controls Over Duplicate Payments. Our statistical sample of
        347 episodes of care (526 claims) identified 24 duplicate claims payments.


                                          5
On the basis of these 24 payments, we estimate that the
overseas-claims-processing contractors made duplicate payments totaling
$7.5 million in FY 2004 and FY 2005. These duplicate payments were the
result of a number of lacking internal controls and processing errors
including:

   •   absence of an auto reject control for duplicate institutional claims,

   •   use of multiple provider numbers for a single provider,

   •   absence of a requirement that beneficiaries provide proof of payment,
       and

   •   presence of processor overrides of system controls.

           Auto Reject of Duplicate Institutional Claims. Currently, the
   TRICARE Operations Manual requires that duplicate claims for
   professional charges, such as physicians’ fees, be subject to automatic
   rejection. The foreign-claims-processing contractor did not have an
   automatic reject in place to prevent duplicate claims for hospital inpatient
   care. Instead, these claims were set aside for manual review. The
   claims-processing system should not allow two hospital inpatient claims
   for the same patient on the same date to occur; the TRICARE Operations
   Manual should be revised accordingly. Automatic rejects of duplicate
   claims for inpatient care should help prevent duplicate claims payments in
   the future.

           Single Provider Record. Contractor system edits for duplicate
   claims are generally based on matching key fields, including the provider
   identification number. We notified TMA Officials in December 2006 of
   potential duplicate claims payments. As the prime contractor for the
   TRICARE South Region, Humana conducted its own review during the
   course of this audit (in March 2007) and identified 1,465 duplicate
   provider records in its subcontractor’s processing system. The
   subcontractor created duplicate provider records when a provider’s billing
   address changed or if the provider name did not have an exact match in
   the system. In March of 2007, Humana instructed its subcontractor to
   inactivate the duplicate provider numbers and use a cross-reference to a
   single provider record.

           We reviewed databank entries for the providers we visited in the
   Philippines and found a provider with 14 different provider numbers. As
   of July 2007, nine of the numbers were still listed as active in the
   Purchased Care Detail Information System, the databank housing DoD
   claims-processing information. Table 2 demonstrates the multiple names
   and provider numbers used for the same facility.




                                 6
           Table 2. Multiple Provider Names and Numbers
                    for St. Luke’s Medical Center

                                       Provider          Status of
                Name                    Number           Number
    St. Luke’s Medical Center         PHA000151           Active
    St. Luke’s Medical Center         PHL003611           Active
    St. Luke’s Medical Center Inc.    PHL041046           Active
    St. Lukes Hosp. Professional      PHL000749          Inactive
    St. Lukes Hospital                PHA000134           Active
    St. Lukes Medical Center          PHL001006           Active
    St. Lukes Medical Center          PHL001643           Active
    St. Lukes Medical Center          PHL002514          Inactive
    St. Lukes Medical Center          PHL002852          Inactive
    St. Lukes Medical Center          PHL003184          Inactive
    St. Lukes Medical Center          PHL007128           Active
    St. Lukes Medical Center          PHL009280          Inactive
    St. Lukes Medical Center          PHL042027           Active
    St. Lukes Medical Center Inc.     PHL003483           Active


        We do not believe there are valid reasons for having more than one
provider number. Limiting providers to a single provider number should
help prevent duplicate payments and should help the claims processor
identify any duplicate payments made.

        Beneficiary Receipts. Requiring that beneficiaries submit proof
of payment when seeking reimbursement from TRICARE should help
ensure beneficiaries are paid only after they have paid the provider.
Claims under investigation are disproportionately those submitted by
overseas beneficiaries. According to the TMA Program Integrity Office,
1,503 TRICARE beneficiaries located overseas are under suspicion of
submitting fraudulent TRICARE claims, compared with only
134 beneficiaries in the continental United States. TMA officials did state
that the percentage of beneficiaries who submit their own claims is much
higher overseas than in the continental United States. However, neither
the TMA manuals (Policy, Operations, and Reimbursement) nor the
contract specifications for the overseas-claims-processing contractors
require overseas beneficiaries to submit proof of payment with their
claims when seeking direct reimbursement.

       Generally, the claim form submitted determines whether the
provider or the beneficiary receives payment. According to TMA and



                             7
                   contractor representatives, the DD2 Form 2642 is a claim form designed to
                   be used by the beneficiary, whereas the UB3 04 (previously UB 92) and
                   CMS4 1500 (previously HCFA5 1500) forms are designed to be used by
                   providers. Thus, generally when a DD Form 2642 is used, the claims
                   processor sends the payment to the beneficiary. However, the TRICARE
                   Policy Manual states that the claims processor, regardless of the type of
                   form used, should send health care payments directly to providers in
                   Europe unless otherwise indicated on the claim. Although beneficiaries
                   must attach a provider statement supporting the charges, there is no
                   requirement to show proof of payment. This practice may have
                   contributed to instances of payments to beneficiaries when payments
                   should have been made to the providers. For seven claims in our
                   statistical sample, processors paid both the beneficiary and the provider.
                   Through discussions with TRICARE officials in Europe, we learned of
                   approximately 460 claims that were incorrectly paid to the beneficiaries.
                   According to TMA officials, these incorrect payments occurred because of
                   a systems problem; however, had these claims been submitted with
                   receipts, the claims processors might have been alerted to the systems
                   problem before payment. According to the U.S. Army European Regional
                   Medical Command, payment delays to providers may reduce access to
                   care if providers are no longer willing to treat TRICARE beneficiaries.
                   Our statistically sampled claims included 50 payments to beneficiaries, yet
                   only 23 beneficiaries (46 percent) submitted receipts with those claims.

                           Requiring receipts will help ensure providers are reimbursed,
                   potentially improving beneficiary access to care. If providers are forced to
                   write off amounts due from TRICARE patients because of nonpayment,
                   providers may be less willing to treat TRICARE patients in the future.
                   Requiring receipts may increase provider willingness to see TRICARE
                   patients and help lower the risk of improperly reimbursing beneficiaries.

                           Limitations on Processor Overrides. Processors paid eight
                   claims in our statistical sample twice because the processor of the claim
                   had the ability to override system edit checks for duplicate claims for
                   professional services. Processors were not comparing actual claim
                   documentation and were making payment decisions based on summary
                   data. We identified multiple claims for the same services billed at
                   different amounts. System edit checks had identified these claims as
                   possible duplicates, but the claims processor had paid the claims anyway,
                   after overriding the system control. Currently, the TRICARE Policy
                   Manual requires review only of inpatient hospital claims exceeding
                   $10,000 and professional service claims exceeding $5,000 for medical
                   necessity. We believe override capability should be limited to supervisory
                   personnel. At a minimum, override exception reports should be generated
                   and reviewed by management regularly.
2
    Department of Defense.
3
    Uniform Business.
4
    Centers for Medicare & Medicaid Services.
5
    Health Care Financing Administration.



                                                8
        Controls to Prevent Overpayments. Our statistical sample of
347 episodes of care (526 claims) identified 26 overpayments. On the basis of
the 26, we estimate that the overseas-claims-processing contractors made
inaccurate payments totaling $7.1 million in FY 2004 and FY 2005. These
erroneous payments were also made due to lacking internal controls and
processing errors, including:

   •   absence of specific guidance for payment of administrative charges
       and other fees,

   •   misinterpretation of foreign claims,

   •   absence of cost containment for overseas health care provided to
       TRICARE beneficiaries,

   •   a potential conflict of interest,

   •   mathematical errors, and

   •   payment of value-added taxes on exempt medical services.

               Specific Guidance for Administrative Charges and Other
       Fees. Claims processors inappropriately paid administrative charges
       and fees on 19 of the 526 overseas health care claims in our sample.
       These charges were typically included in the charge for the procedure
       code billed to TRICARE. Administrative charges paid included costs
       for use of the telephone, admission and discharge fees, accompanying
       person fees, charges for private rooms, and currency exchange fees.
       Current TRICARE policy states administrative charges listed
       separately on foreign claims are to be denied for payment. Neither
       TMA nor any of the contractors interviewed could produce a list of
       administrative charges that should not be paid on foreign claims.
       Policy and contractor work instructions should be clarified to include
       specific examples of what constitutes an acceptable administrative
       charge.

                Interpretation of Foreign Claims by Specialists. Three of
       the overpayments in the statistical sample occurred because the claims
       processor was not carefully reviewing and translating the claims. For
       example, a German provider sent a corrected bill along with a bill
       marked “cancelled/credit.” The processor accepted the claims as two
       distinct bills and paid both. In addition, two German claims in our
       statistical sample contained procedure codes that the German social
       health care system does not permit to be billed together (meaning one
       of the codes incorporates the services of the other). During the audit,
       the foreign-claims-processing contractor implemented a control to
       route claims from specific countries to processors knowledgeable of
       country billing practices. Before implementing this control, claims
       were routed to processors on a first-in, first-out basis. This control
       should help reduce payment inaccuracies.



                                   9
                               Cost Containment. The TRICARE Global Remote Overseas
                       (TGRO) contractor was not applying cost containment measures
                       required by its contract. The TGRO contract provides TRICARE
                       coverage to active duty personnel and their family members residing
                       in remote overseas locations. TMA policy for payment of foreign
                       claims is generally to pay the billed charges. However, the TGRO
                       contract specifically requires the contractor to negotiate fee schedules
                       with network providers. If fee schedules cannot be negotiated, the
                       contractor is to limit the reimbursement to the CHAMPUS6 maximum
                       allowable charge7 for the Washington, D.C., area, unless extenuating
                       circumstances exist. According to TMA General Counsel, the fact that
                       the health care services are provided in a remote location does not
                       constitute extenuating circumstances because the entire contract
                       covers remote overseas locations.

                               Our statistical sample included 36 paid TGRO claims. No
                       documentation was submitted with any of the claims to substantiate
                       extenuating circumstances. Of the 36 paid claims, we were able to
                       review 17 for cost containment by requesting and reviewing the
                       provider fee schedule. For claims related to outpatient services for
                       which we did not receive a fee schedule, we compared the billed
                       charges with the CHAMPUS maximum allowable charges for the
                       Washington, D.C., area. Three of the claims exceeded the provider fee
                       schedule; 6 claims exceeded the CHAMPUS maximum allowable
                       charge for the Washington, D.C., area; and 19 claims could not be
                       reviewed because either the services billed were inpatient services (the
                       contract does not address cost containment for inpatient services) or
                       the claim was improperly coded by the contractor, and we could not
                       determine which CHAMPUS maximum allowable charge to apply.
                       For our statistical estimates, we treated those 19 claims as though they
                       were processed correctly, and our estimates are therefore conservative.
                       Finding B addresses the adequacy of the provider fee schedules.

                               Review for Conflict of Interest. We also identified a
                       potential conflict of interest. The statistical sample included a claim
                       processed by the TGRO contractor submitted by a clinic owned by the
                       TGRO contractor. The contract statement of work requires the TGRO
                       contractor to manage case referrals for TRICARE beneficiaries as well
                       as to provide cost containment. We searched the TGRO contractor’s
                       Web site and the TMA claims database and found $2.9 million in
                       claims payments made to 21 facilities owned by the contractor from
                       FYs 2004 through 2007. This potential conflict of interest should be
                       reviewed by TMA officials to ensure the contractor is performing its
                       fiduciary duties as a Government contractor.


6
    The TRICARE program was formerly referred to as the Civilian Health and Medical Program of the
    Uniformed Services (CHAMPUS).
7
    A CHAMPUS maximum allowable charge is a maximum reimbursement rate that applies to a procedure
    for a given locality in the United States or Puerto Rico.



                                                   10
                   Checks for Mathematical Errors. The statistical sample
           identified three claims that had errors in currency conversions or errors
           in provider bills not caught by the claims processors. In addition to
           errors on claims in the statistical sample, we identified mathematical
           processing errors totaling $160,822 during Phase One of the audit.
           One processor added an extra digit to the amount paid, increasing the
           payment from $13,933 to $133,933. We believe these errors further
           support the need to implement performance standards for claims
           accuracy to reduce such erroneous payments.

                  Country-Specific Policies on Value-Added Taxes. By
           reviewing the provider bills supporting the claims in our statistical
           sample, we identified 12 claims for which the claims processors paid
           taxes. These charges were typically included in the charge for the
           procedure code billed to TRICARE. Processors made payments for
           value-added tax in Spain, where medical services are exempt from tax.
           For our statistical projections, we considered the payment of taxes
           appropriate in other countries.

                   In countries such as Germany, billings for value-added tax on
           health care services are complex. Durable medical equipment is taxed
           at 7 percent, while pharmaceuticals and medical services are taxed at
           rates as high as 19 percent, except for private hospitals in certain
           instances. In Germany, billing for value-added taxes on medical
           services is appropriate if the care is provided in a facility with more
           than a 60-percent private patient workload. We do not expect U.S.
           claims-processing contractors to be knowledgeable about public and
           private hospitals in Germany or the attributes of their patient
           workload, but believe TMA should seek modification of the Status of
           Forces Agreement to exempt health care services provided to
           TRICARE patients from value-added taxes. Currently, purchases of
           goods and services by our active-duty Service members stationed in
           Germany are exempt from value-added taxes.

                    A Status of Forces Agreement (SOFA) is an agreement
           between the United States and a foreign country in which the United
           States stations military forces. A SOFA is intended to clarify the
           terms under which the military is allowed to operate. A SOFA is
           concerned with the legal issues associated with military individuals
           and property, such as entry into and exit from the country, tax
           liabilities, postal services, and civil and criminal jurisdiction over
           military bases. TRICARE could reduce overseas health care costs by
           seeking exemption from value-added taxes for health care provided to
           TRICARE beneficiaries. We brought this option to the attention of
           TMA on April 11, 2007. As a result, TMA is exploring modification
           of the SOFA with Germany to exempt TRICARE claims payments
           from German value-added taxes.

Contract Oversight. TMA did not establish contract surveillance plans for three
of its six contracts for processing overseas health care claims until well after the
contracts were awarded, including the primary contract for overseas claims


                                     11
processing. Further, these three surveillance plans were in draft form and not
finalized as of August 2007. A quality assurance surveillance plan is used to
measure contractor performance and to ensure that the Government both receives
the quality of services called for under the contract and pays only for the
acceptable level of services received. As shown in Table 3, more than 3 years
passed before TMA developed a surveillance plan for the
foreign-claims-processing contract.

             Table 3. Contract Award and Surveillance Plan Dates

                                                      Date of Draft
                                                    Quality Assurance
  Contract                      Award Date          Surveillance Plan
  TRICARE South               September 2003            June 2007
  Region (Subcontract)
  TGRO                        December 2002           October 2006
  TRICARE Puerto Rico          February 2004            May 2006


Further, the limited contract performance measures we were able to identify in the
draft plans assessed either the quality of care provided (for example, how quickly
a call for referred care was answered) or the speed with which a claim was
processed. Performance measures did not address the accuracy of contractor
payments.

The TRICARE Operations Manual, Chapter 1, Section 3, includes a standard for
accurate payment of TRICARE claims. The standard states that the absolute
value of payment errors shall not exceed 2 percent of the total billed charges.
This standard is reiterated in the TRICARE South Region contract (performance
guarantee section), stating that erroneous payments from a sample selection for
TMA quarterly audit shall not exceed 2 percent. According to the contract, if the
2-percent error rate is breached, the Government may withhold 10 percent of the
value of payment errors in excess of the 2-percent standard. However, foreign
claims are not included in the TMA assessment of the contractor’s performance.
Inclusion of foreign claims may help detect lacking internal controls and prevent
future erroneous payments. Although our sample projections cannot be applied to
individual contractors, the error rate in our statistical sample was approximately
11 percent.

Recoupment Procedures. The Overseas Program has had limited success
recouping overpayments. In FYs 2005 and 2006, TMA was successful in
recouping only 62 percent of inaccurate claims payments. Data provided by the
largest processor of overseas health care claims for the Overseas Program show
that, from FYs 2005 through 2006, $1.12 million in inaccurate payments was
identified, yet only $0.7 million was recouped from TRICARE beneficiaries or
providers. Further, TMA has not used offsets in Europe (where 53 percent of
overseas TRICARE beneficiaries reside) to assist in reclaiming erroneous


                                    12
       payments from providers. Offsets allow the contractor to deduct amounts owed
       by providers from future claims payments.

       The use of offsets in Europe could significantly improve the Overseas Program’s
       recoupment rate. TRICARE Officials in Europe expressed concern that the
       accounting systems of third-party billing agencies in Europe cannot accommodate
       the use of offsets. In Germany, third-party billing agencies provide payment
       upfront to providers for their health care claims, typically less a small percentage
       for the third-party billing agency’s services. TRICARE Officials in Europe
       maintain that the German health care system imposes liability for outstanding
       health care payments on the recipient instead of on the provider. Therefore, if an
       offset is used against a German provider who uses a third-party billing agency,
       the patient could remain liable to the third-party billing agency for payment.
       However, in our first report on the Overseas Program, Report Number D2006-
       051, dated February 10, 2006, “TRICARE Overseas Controls Over Third Party
       Billing Agencies and Supplemental Health Insurance,” we recommended that
       TMA stop forwarding claims payments to third-party billing agencies. Sending
       claims payments to providers instead of to third-party billing agencies in Europe
       may alleviate the accounting problem in Europe. Because the majority of
       overseas beneficiaries reside in Europe, implementing offsets for TRICARE
       claims from Europe could significantly improve the Overseas Program’s
       recoupment rate.


Conclusion
We estimate that TMA made inaccurate payments totaling about $14.6 million for
overseas health care claims during FYs 2004 and 2005. On the basis of the statistical
sample, we estimate that TMA made $7.5 million in duplicate payments and $7.1 million
in overpayments during FYs 2004 and 2005 for overseas TRICARE claims. TMA could
reduce the risk of making these inaccurate payments by ensuring the contractors
processing overseas claims have adequate internal controls that would prevent duplicate
and other overpayments. Further, establishing and implementing contract surveillance
plans that include payment accuracy standards and measurements should also reduce the
risk of erroneous payments. Additionally, using offsets in Europe should help TMA
recoup funds from providers that have received duplicate or overpayments. By
strengthening internal controls, establishing sound contract surveillance plans, and
improving recoupment procedures, we project that TMA could put about $4.95 million of
Defense Health Program funds to better use each year and $29.7 million during execution
of the FYs 2008 through 2013 Future Years Defense Plan.

Duplicate payments and overpayments made through the Overseas Program may need to
be reported in accordance with Public Law 107-300, “Improper Payments Information
Act of 2002,” November 26, 2002. According to the Act, improper payments totaling
2.5 percent of program payments or totaling $10 million annually must be included in the
Annual Performance and Accountability Report to the President and Congress. For those
payments exceeding $10 million annually, the agency head must also provide a report
discussing the cause of the improper payment(s) and the step(s) taken to hold agency
managers accountable for reducing future improper payments.



                                            13
Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, TRICARE Management Activity:

         1. Revise Chapter 12 of the TRICARE Policy Manual to require at a
    minimum:

               a. Use of a single identification number for foreign providers.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    concurred and stated TMA has taken steps to eliminate multiple identification
    numbers.

    Audit Response. The Assistant Secretary’s comments satisfy the intent of the
    recommendation.

               b. Automatic rejects for duplicate claims for hospital inpatient
               charges.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    nonconcurred. He stated that automatic rejects may incorrectly deny claims that
    involve patients who have been transferred to another department within a
    hospital or to another hospital. In technical comments to the finding, the
    Assistant Secretary stated that this does not occur often. Additionally, the
    Assistant Secretary stated that none of the TRICARE domestic claims
    subcontractors used an automated system to reject duplicate inpatient institutional
    claims. The Assistant Secretary stated that the foreign-claims-processing
    contractor has implemented steps to reduce the likelihood of duplicate payments.

    Audit Response. The Assistant Secretary’s comments are nonresponsive.
    According to the Assistant Secretary, inpatient transfers do not occur often. We
    do not believe the exception should dictate the rule. Use of an automatic edit
    reject would not prevent the contractor from paying legitimate claims; however, it
    should require supervisory review. Although TMA does not use auto rejects for
    hospital inpatient claims, it uses them for professional services. Lastly, during
    our audit, we discovered that one of the three primary contractors that process
    overseas claims had such an edit check in place. Therefore, we request that the
    Assistant Secretary reconsider his position on the recommendation to revise
    Chapter 12 of the TRICARE Policy Manual and provide additional comments in
    response to the final report.

               c. Limitations on overrides of duplicate edit checks.

    Management Comments. The Assistant Secretary of Defense (Health Affairs)
    nonconcurred. He stated, however, that steps have been taken to minimize the
    use of overrides, including daily reviews, modification of instructions, and
    training.




                                        14
Audit Response. Although the Assistant Secretary did not agree with the
recommendation, the actions he outlined in the comments meet the intent of the
recommendation.

           d. Proof of payment for beneficiary claims.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
nonconcurred. He stated that requiring receipts would cause problems because
some providers do not provide proof of payment, and it is difficult to determine
the validity or accuracy of the proof of payment. Moreover, he said, beneficiaries
in the United States are allowed to submit claims without proof of payment.

Audit Response. The Assistant Secretary’s comments are nonresponsive. We
agree that proof of payment cannot be limited to receipts from host-nation
providers. Proof of payment could include a beneficiary’s cancelled check or a
credit card statement. We reviewed Federal Employee Health Benefits Program
brochures and found three companies--Aetna, Optima Health, and M.D. IPA--that
required beneficiaries to submit proof of payment prior to reimbursement for
overseas health care claims. Further, we disagree with the statement that
beneficiaries in the United States do not have to submit proof of payment.
TRICARE requires active-duty Service members stationed overseas who receive
health care within the United States to submit proof of payment with claims when
seeking reimbursement. In addition, TRICARE requires its beneficiaries to
submit proof of payment for claims for pharmacy items purchased in the United
States. We share the Assistant Secretary’s concerns about determining the
validity of receipts; however, requiring proof of payment should help discourage
beneficiaries from seeking reimbursement when they did not pay the claim. If
beneficiaries are reimbursed and do not pay providers, these providers may cease
to provide care for TRICARE beneficiaries, resulting in reduced access to care.
We therefore request that the Assistant Secretary reconsider his position on the
recommendation to revise Chapter 12 of the TRICARE Policy Manual and
provide additional comments in response to the final report.

           e. Use of offsets in Europe.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred and stated that TRICARE began using offsets in Europe in
October 2007 and will update the TRICARE Policy Manual, Chapter 12, to
reflect this change.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

           f. Clarification of unacceptable administrative charges on foreign
           claims.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred and stated that the Contracting Officer provided the
foreign-claims-processing contractor with guidance on processing administrative
fees. He said further clarification will be provided in an updated TRICARE
Policy Manual, Chapter 12.


                                    15
Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

      2. Direct use of the UB 04 (previously UB 92) and HCFA 1500
provider forms for claim submissions from European providers.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred, stating that universal claim forms will be required for all provider
submissions with the follow-on overseas contract.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

       3. Establish surveillance plans for each overseas-claims-processing
contract, and include in each plan performance measurements and incentives
based on the accuracy of claims payments.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred, stating plans are currently in place or are being finalized.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

       4. Review activities performed by the TRICARE Global Remote
Overseas contractor to determine whether its ownership of facilities
providing health care to TRICARE beneficiaries constitutes a conflict of
interest.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
neither concurred nor nonconcurred. The Assistant Secretary stated that both the
Contracting Officer and the Office of General Counsel have concluded that,
although there is no personal or organizational conflict of interest, there is the
appearance of a potential general conflict of interest. The Contracting Officer
will work with the TRICARE Global Remote Overseas contractor to mitigate the
appearance of a conflict of interest and will address these concerns in the follow-
on TRICARE Overseas contract.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

       5. Coordinate with the Office of General Counsel and take action to
exempt TRICARE payments from value-added taxes in Germany and other
countries as deemed appropriate.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred, stating that TRICARE has been added to the list of agencies allowed
to obtain a value-added tax exemption and is working to satisfy local
requirements of eligibility and documentation.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.


                                     16
              6. Send notifications to all overseas processing contractors of updates
       to Status of Forces Agreements regarding payment of value-added taxes for
       health care services.

       Management Comments. The Assistant Secretary of Defense (Health Affairs)
       concurred, stating that TMA would evaluate the best mechanism to exempt its
       health care from value-added taxes. The Assistant Secretary further stated it is
       unlikely that any SOFA updates will be required.

       Audit Response. The Assistant Secretary’s comments satisfy the intent of the
       recommendation.

              7. Determine reporting requirements under the Improper Payments
       Act for payment inaccuracies by the Overseas Program.

       Management Comments. The Assistant Secretary of Defense (Health Affairs)
       concurred, stating that the Defense Contract Audit Agency was scheduled to
       determine the agency’s reporting requirement under the Improper Payments Act
       in the fall of 2007.

       Audit Response. Although the Assistant Secretary concurred, his comments are
       partially responsive. We believe that having the Defense Contract Audit Agency
       perform regular audits is a good initiative to report future results to satisfy the
       Improper Payments Act. However, the Assistant Secretary’s comments did not
       address the duplicate payments and overpayments cited in this report and whether
       they will be reported under the Improper Payments Act. We request that the
       Assistant Secretary provide additional comments in response to the final report.


Additional Comments and Audit Response
Management Comments. The Assistant Secretary of Defense (Health Affairs) tasked
Humana Military Health Services to review the claims payment discrepancies cited in our
report. The Assistant Secretary provided Humana’s comments in a separate e-mail.
Humana did not agree that certain claims were duplicate payments or overpayments.
Humana disagreed with 42 of the 50 claims. Of the 24 duplicate payments, Humana
stated that 19 were not duplicates. Of the 26 overpayments, Humana stated that 23 were
not overpayments.
Auditor Response. We identified 24 duplicate payments and 26 overpayments in our
statistical sample. During our review, we considered any claim paid more than one time,
even if later recouped, to be a duplicate payment. The audit team verified each of these
claims with WPS personnel during a 2-week site visit. Having reviewed Humana’s
comments, we stand by our results. If additional meetings are needed to further discuss
these claims, we are willing to attend.

Based on information provided by management regarding the contractor’s collection of
duplicate payments, we reduced the potential monetary benefits associated with duplicate
payments. We reduced the potential monetary benefits associated with duplicate
payments from $22.5 million to $8.5 million, by applying the historical recoupment rate


                                           17
provided by the foreign-claims-processing contractor. Consequently, we lowered the
total potential monetary benefits for finding A from $43.8 million to $29.7 million.

The Assistant Secretary of Defense (Health Affairs) did not indicate concurrence or
nonconcurrence with the potential monetary benefits in relation to the finding. We
request that the Assistant Secretary of Defense (Health Affairs) comment on the potential
monetary benefits in the final report.




                                           18
           B. Price Caps on Payments of Claims for
              Professional Services and Hospital
              Inpatient Charges
           TMA has price caps on claims payments for health care in the Philippines
           and Puerto Rico. TMA plans to revise the Philippines price caps and
           implement price caps in Panama. We believe TMA could further control
           health care costs by:

               •   establishing price caps for professional services and hospital
                   inpatient claims in countries with a high dollar value of claims
                   payments and countries that have significant increases in health
                   care costs,

               •   ensuring that all TRICARE claims, including TRICARE Global
                   Remote Overseas claims, submitted in each country are subject to
                   the same price caps, and

               •   implementing price caps in Guam and the U.S. Virgin Islands that
                   are based on those used by the Centers for Medicare & Medicaid
                   Services.

           Proceeding with the price cap initiatives in the Philippines and Panama
           and expanding similar price caps in other countries could result in TMA
           annually putting at least $16 million of Defense Health Program funds to
           better use, totaling $96 million during the execution of the FYs 2008
           through 2013 Future Years Defense Plan.


Overview
    TRICARE Reimbursement Criteria. The Code of Federal Regulations,
    Title 32, Part 199.14, “Provider Reimbursement Methods,” establishes guidelines
    for paying providers for health care rendered in the United States and Puerto
    Rico. Chapter 12, Section 10.1, of the TRICARE Policy Manual, 6010.54-M,
    August 1, 2002, states that, with the exception of the Philippines, Puerto Rico,
    and prescription drugs in Panama and Costa Rica, the reimbursement of overseas
    claims for health care is to be based on billed charges. In addition, the Director of
    TMA “shall determine the appropriate reimbursement method or methods to be
    used in the extension of [TRICARE] benefits for otherwise covered medical
    services or supplies provided by hospitals or other institutional providers,
    physicians or other individual professional providers, or other providers outside
    the United States.” The policy manual states that claims for care in Puerto Rico
    are to be reimbursed following guidelines for the continental United States.
    Chapter 6, Section 4, of the TRICARE Reimbursement Manual requires that
    claims filed for services in Puerto Rico follow a payment system using
    diagnostic-related groups for the reimbursement of hospital inpatient claims.



                                         19
    Types of Claims. Claims generally cover one of three categories: professional
    services, hospital inpatient charges, or claims for other charges. A professional
    services claim includes a physician’s fees for performing certain procedures. A
    claim for hospital inpatient charges includes the use of hospital facilities,
    equipment, and supplies. In addition to claims for professional services and
    hospital inpatient charges, other claims may include charges for pharmaceuticals,
    durable medical equipment devices, and other items. We reviewed only claims
    for professional services and hospital inpatient charges. A provider, hospital,
    beneficiary, or third-party billing agency may submit a claim for professional
    services, hospital inpatient charges, or charges that fall in the other category.
    Total health care costs for the Overseas Program were $210.9 million in FY 2006.
    The figure below shows that 85 percent of the claims paid in FY 2006 were for
    professional services and hospital inpatient claims according to WPS, the
    TRICARE overseas contractor.


                       14.7%

                                                    Professional
                                      42.8%
                                                    Hospital Inpatient
                                                    Other
                     42.5%

                             Overseas Claims Paid in FY 2006


Overseas Program Health Care Costs
    Despite TMA’s initiatives, Overseas Program health care costs continue to rise in
    selected countries. TMA has implemented several controls that limit payments on
    Overseas Program claims for professional services and hospital inpatient charges.

       •   In February 2004, TMA modified the TRICARE Policy Manual to
           implement price caps on Philippine professional services using price caps
           in place at the time in Puerto Rico.

       •   In September 2004, TMA initiated a per diem reimbursement system in
           the Philippines that limited payment for inpatient hospitalization charges
           to a fixed daily rate (per diem) based on the patient’s diagnosis.

       •   In January 2007, the Assistant Secretary of Defense (Health Affairs)
           approved the implementation of revised price caps for professional
           services and hospital inpatient charges for the Philippines and established
           price caps on professional services and hospital inpatient charges in
           Panama. The price caps were anticipated to be in place by January 1,
           2008.

    We applaud TMA for taking actions to control health care costs by revising price
    caps in the Philippines and implementing price caps in Panama. We believe that
    TMA should also implement price cap controls on claims for professional


                                        20
      services and hospital inpatient charges in other countries with a high dollar value
      of claims payments and in countries with significant increases in health care
      costs. According to TMA claims data, payments rose significantly during the past
      few years in several countries. Table 4 shows nine countries with significant
      increases in amounts paid from FYs 2003 through 2006.

         Table 4. Countries With Significant Increases in Claims Amounts Paid
                               (FYs 2003 through 2006)*

                                      Value of Total Paid Claims                 Percent
                                                                                 Change,
                                                                                FYs 2003
       Country or                                                               Through
        Territory        FY 2003       FY 2004        FY 2005       FY 2006       2006
  Brazil                    $88,587     $124,120       $310,850      $410,592     363.5%
  Germany                62,583,848   73,338,685     83,145,687    81,328,852       30.0
  Korea, Republic         1,641,966    1,992,484      2,612,197     3,549,822      116.2
  Mexico                  1,246,945    2,044,245      3,120,246     2,086,120       67.3
  Singapore                 603,605    1,642,666      2,278,501     2,013,790      233.6
  Spain                     588,295      701,944        990,051     1,012,009       72.0
  Thailand                  482,777      904,079      1,202,991     1,356,078      180.9
  United Kingdom          6,390,809    8,248,498     11,503,054    13,037,387      104.0
  U.S. Virgin Islands       482,820      915,532      1,635,761     1,550,896      221.2
  *
  Data were obtained in July 2007.

      Table 4 shows that paid claims in Singapore and the U.S. Virgin Islands both
      increased by more than 200 percent from FY 2003 through FY 2006. While eight
      of the nine locales in Table 4 had payments of more than $1 million in FY 2006,
      other countries with payments of less than $1 million have seen significant
      increases. For example, paid claims increased by more than 350 percent in Brazil
      from FY 2003 through FY 2006. While claims payments for care received in
      these countries may appear small, payments may exceed $1 million annually in
      the near future. The amount paid as shown in Table 4 may appear to have fallen
      in some locales in FY 2006, as it did in the U.S. Virgin Islands; however, these
      data cover only part of FY 2006 because the information was obtained as of July
      2007, and providers and beneficiaries had another 3 months to submit claims for
      FY 2006 care. Other countries also showed increases from FY 2003 through
      FY 2005. For example, paid claims in Mexico and Thailand increased by about
      150 percent from FY 2003 through FY 2005.


Additional Controls Needed Over Health Care Costs
      Implementing price caps on claims for professional services and hospital inpatient
      charges could result in TMA annually putting at least $16 million of Defense
      Health Program funds to better use, totaling $96 million during the execution of




                                              21
           FYs 2008 through 2013 Future Years Defense Plan.8 TMA has price caps on
           professional services and hospital inpatient charges in the Philippines and Puerto
           Rico. In addition, it has plans to revise price caps for the Philippines and
           implement price caps for Panama. TMA could further control health care costs
           by:

               •    implementing professional services price caps in the Philippines and
                    Panama as planned and in other countries,

               •    implementing hospital inpatient price caps in the Philippines and Panama
                    as planned and in other countries,

               •    ensuring that the same price caps within each country are applied to all
                    claims, including TRICARE Global Remote Overseas claims, and

               •    developing and implementing price caps in Guam and the
                    U.S. Virgin Islands using price caps established by the Centers for
                    Medicare & Medicaid Services.

           Price Caps on Professional Services. By implementing professional services
           price caps in seven countries, TMA could annually put at least $9 million of funds
           to better use. TMA limits professional services in Puerto Rico and areas within
           the United States to the lesser of billed charges or CHAMPUS maximum
           allowable charges. A CHAMPUS maximum allowable charge is a maximum
           reimbursement rate that applies to a procedure for a given locality in the United
           States or Puerto Rico. TMA began using the Puerto Rico CHAMPUS maximum
           allowable charges to reimburse claims for professional services in the Philippines
           in February 2004.

           TMA maintains a national CHAMPUS maximum allowable charge list that
           contains the average reimbursements for more than 7,000 procedures. Many of
           these amounts are derived from price caps developed by the Centers for Medicare
           & Medicaid Services. The Centers for Medicare & Medicaid Services
           administers the Medicare program and provides health insurance to individuals
           age 65 or older, individuals with certain disabilities, and individuals with end-
           stage renal disease. The TMA January 2007 price caps on claims for professional
           services in the Philippines and Panama are based on the average of existing price
           caps on professional services in the United States (national CHAMPUS maximum
           allowable charge averages) converted using a country-specific cost of living
           factor: the World Bank’s purchasing power parity (PPP) index. According to the
           World Bank, the PPP is defined as “the number of currency units required to
           purchase the amount of goods and services equivalent to what can be bought with
           one unit of the currency of the base country, for example the U.S. dollar.”9 The

8
    Savings for professional services were based on the top 20 procedures (those with the highest allowable
    amounts) for the seven countries with the highest claims amounts paid. Total savings for hospital
    inpatient charges were calculated for the seven countries with the highest PPP-indexed savings. We
    obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims can be submitted up to 1 year
    after the date of service. Therefore, the data cover all of FY 2004 and parts of FYs 2005 and 2006. As a
    result, our potential monetary benefits are conservative.
9
    World Bank International Comparison Program 2003-2006 Handbook.



                                                      22
            World Bank created the PPP index to allow individuals to compare the prices of
            the same items in more than 150 countries. TMA plans to implement the
            CHAMPUS maximum allowable charges in the Philippines and Panama over
            2 years to give host-nation providers time to adjust to the reimbursement rates.

            Table 5 shows the difference between what was allowed and what would have
            been allowed if the PPP index had been used on professional services from the
            start of FY 2004 through July 2006 in selected countries for certain
            procedures.10,11

              Table 5. Difference Using PPP-Indexed CHAMPUS Maximum Allowable
                      Charges1 for the Top 20 Procedures in Selected Countries
                                     (FY 2004 through July 2006)2
                                                                                              Difference as a
                                           Actual           Allowed          Difference         Percent of
                                          Allowed        Charges Using       Using PPP        Actual Allowed
                         Country          Charges         PPP CMAC3           CMAC4              Charges
                   Germany               $74,943,261       $49,460,609       $25,482,652           34.0%
                   Italy                   2,734,983         1,225,012          1,509,971          55.2
                   Mexico                    821,983           296,333            525,650          63.9
                   Panama                  4,481,168         1,728,903          2,752,265          61.4
                   Philippines5            2,265,226         1,138,101          1,127,125          49.8
                   Singapore               1,066,867           265,100            801,767          75.2
                   United Kingdom          6,129,765         2,129,831          3,999,934          65.3
                     Total               $92,443,253       $56,243,889       $36,199,364           39.2%

               1
                We did not include TRICARE Global Remote Overseas claims in this analysis because the
                TRICARE Global Remote Overseas contractor was not using full procedure coding and
                would skew the calculation of potential monetary benefits. We did not include U.S.
                territories in the analysis.
               2
                We obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims can be
                submitted up to 1 year after the date of service. Therefore, the data cover all of FY 2004 and
                parts of FYs 2005 and 2006. As a result, our calculations are conservative.
               3
                PPP-indexed CHAMPUS maximum allowable charges.
               4
                We calculated the difference by first determining the PPP value for each country (by
                multiplying the national reimbursement rate by the PPP country index supplied by the World
                Bank’s International Comparison Program). We then compared the PPP value with the
                TRICARE-allowed amount for each procedure.


10
      The claims data provided by TMA did not provide the amount paid for a particular procedure code;
     however, the data did provide the amount that TRICARE allowed. The allowed amount may be reduced
     by other factors, such as the share that the beneficiary must pay. After deductions are made from the
     allowed amount, TRICARE pays the difference. Therefore, we reduced the allowed amount by the full
     25 percent beneficiary cost share to determine a conservative amount of funds that TMA could put to
     better use.
11
      We selected the top seven countries with the highest amounts paid. The top 20 procedure codes varied
     among the seven countries based on the procedures with the highest charges allowed by TRICARE.




                                                       23
              5
                  Because TMA implemented price caps on professional services in the Philippines in February
                  2004, the analysis was performed only on claims submitted on or after February 2004.
           Because Table 5 shows the difference for only the top 20 procedures in each of
           the top seven countries, the potential monetary benefits should be even greater
           than shown. As seen in Table 5, TMA could have reduced the
           TRICARE-allowed amounts by at least 39 percent. In fact, TMA could have
           reduced the allowed amounts in five of the seven countries by more than 50
           percent. The difference of $36 million shown in Table 5 is based on allowed
           charges.12 Assuming that beneficiaries paid the full 25-percent cost share for all
           charges, TMA could have realized potential monetary benefits of at least $27
           million in paid claims during a 3-year period; therefore, by implementing
           professional services price caps, annually TMA could put more than $9 million of
           funds to better use. In addition, these price caps theoretically could have reduced
           the beneficiaries’ out-of-pocket expenses by lowering their cost shares.

                   Revised Price Caps for Professional Services in the Philippines. The
           changes TMA proposes to the price caps for professional services in the
           Philippines should result in prices that more realistically reflect the costs of health
           care. During our prior audit of the Overseas Program, we noticed that claims
           payments made for health care in the Philippines rose from $2.87 million in FY
           1998 to $64.19 million in FY 2003, while the number of beneficiaries remained
           stable. In February 2004, TMA began limiting claims in the Philippines for
           professional health care services, such as doctor visits, using the already
           established Puerto Rico CHAMPUS maximum allowable charges. However, the
           costs of health care in the Philippines are substantially lower than in Puerto Rico.
           According to the World Health Organization, the cost for a 20-minute doctor’s
           office visit at a health center in the Philippines is between $7.46 and $8.11,
           compared with the Puerto Rico CHAMPUS maximum allowable charge of $43.94
           for a similar visit.13 Applying the planned professional fee schedule in the
           Philippines, converted using the PPP, should eliminate the disparity. The
           proposed PPP-indexed CHAMPUS maximum allowable charge in the Philippines
           would lower the reimbursement from $43.94 to $13.63 in the second year of
           implementation. Table 6 compares claims payments for the five most commonly
           performed surgical procedures in the Philippines from FYs 2004 through 2006.




12
     We obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims can be submitted up to
     1 year after the date of service. Therefore, the data cover all of FY 2004 and parts of FYs 2005 and
     2006. As a result, our potential monetary benefits are conservative.
13
     The Puerto Rico CHAMPUS maximum allowable charge as of January 1, 2007.



                                                       24
  Table 6. Fees for Top 5 Most Frequently Performed Philippine Surgical
  Procedures: Comparing Puerto Rico CHAMPUS Maximum Allowable
   Charges and PPP-Indexed CHAMPUS Maximum Allowable Charges
                          (as of January 1, 2007)

                                                   Puerto
                                                     Rico      PPP-indexed
       Procedure                                   CMAC*         CMAC
       Incision and drainage of abscess             $75.90       $18.80
       Destruction by any method of lesions          50.13        12.66
       Destruction by any method of warts            67.20        17.51
       Insertion of intraperitoneal cannula         107.24        25.16
       Hemodialysis                                  59.03        13.49
   *
    CHAMPUS maximum allowable charge

As shown in Table 6, Puerto Rico reimbursement amounts are significantly higher
than the PPP-indexed Philippine-specific amounts for the procedures shown.

       Price Caps on Professional Services in Panama. In January 2007, the
Assistant Secretary of Defense (Health Affairs) approved a plan to institute new
professional services price caps in Panama using the PPP method. The new
amounts are anticipated to be effective in January 2008. We agree with the plan
to implement professional services caps in Panama.

Our statistical sample included eight Panama claims for professional services that
were submitted with procedure codes. All eight of the claims had charges that
exceeded the CHAMPUS maximum allowable charges for the Washington, D.C.,
area by a total of $6,481.22 (61 percent). According to the World Bank’s PPP
index for Panama, Panama health care costs should be 40 percent less than costs
in the United States. Setting price caps using the PPP index would more
accurately align the reimbursement amounts. During a visit to Panama, we
obtained a price list from one of the three primary hospitals providing care to
TRICARE beneficiaries. Thirty of the forty-five professional service prices we
reviewed were higher than the Washington, D.C., TRICARE reimbursement
amounts. For example, the Panama hospital price list stated that an electrolyte
panel costs $43.18, whereas this procedure is reimbursed at only $11.26
according to CHAMPUS maximum allowable charges for Washington, D.C. The
price list also stated that an x-ray exam of the spine costs $106.68, whereas this
procedure is reimbursed at only $77.00 using the Washington, D.C., maximum
allowable charges.

Additionally, claims data (excluding claims for active duty personnel in overseas
remote locations under the TRICARE Global Remote Overseas contract) show
that TRICARE has allowed charges for 15-minute doctor’s office visits that far
exceed what is normal and customary for Panama. The World Health
Organization reported that a similar office visit there should cost between $25 and
$28. Table 7 shows the ranges TRICARE allowed for 15-minute office visits
provided from FY 2004 through July 2006.



                                     25
     Table 7. Reimbursement for an Intermediate Doctor’s Office Visit
          of 15 minutes in Panama, FY 2004 Through July 20061

                    Allowed            Number of         Percent of
                     Range             Procedures       Procedures2
                $0.01 to $39.99             12               1.0%
                $40.00 to $50             965               80.3
                $50.01 to $100              38               3.2
                $100.01 to $200           165               13.7
                More than $200              21               1.7
            1
             We obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims
             can be submitted up to 1 year after the date of service. Therefore, the data cover
             all of FY 2004 and parts of FY 2005 and 2006. We did not include TRICARE
             Global Remote Overseas claims.
             2
                Percentages do not equal 100 due to rounding.


TMA allowed charges of $40 to $50 for 80 percent of the office visits, and for
15 percent of the office visits, it allowed more than $100, as shown in Table 7.
Had TMA applied the PPP index to the CHAMPUS maximum allowable charge,
it would have allowed $36 for an office visit. An office visit in Panama is $36
when the PPP index is applied to the CHAMPUS maximum allowable charge.
Using the proposed CHAMPUS maximum allowable charge should help ensure
that TMA-allowed charges for health care services in Panama, including office
visits, are closer to what is reasonable and customary in that country. If these
professional services price caps had been applied in the Philippines, Panama, and
other countries, TMA could have realized potential monetary benefits of at least
$27 million in paid charges during a 3-year period. TMA could realize additional
potential monetary benefits by implementing hospital inpatient price caps.

Price Caps on Hospital Inpatient Charges. By implementing price caps on
hospital inpatient charges in seven countries, annually TMA could put about
$7 million of funds to better use. TMA generally pays hospital inpatient claims
for the full amount billed. However, TMA limits hospital inpatient claims in
Puerto Rico based on a payment system using diagnostic-related groups that is
also used by TMA in the United States. In September 2004, TMA began limiting
Philippines hospital inpatient claims using a Philippine-specific per diem system.
Hospital inpatient per diem systems, such as the Philippines system, are designed
to pay a maximum daily rate based on the primary diagnosis. When a claim is
submitted, TRICARE pays the lesser of the per diem rate or billed charges. In
January 2007, the Assistant Secretary of Defense (Health Affairs) approved the
revision of the Philippines per diem system and the implementation of a per diem
system in Panama using the PPP index. We agree with the revision of the
Philippines per diem system and the implementation of the Panama per diem
system.

       We applied the PPP index to seven countries in the Overseas Program and
found that TMA could realize substantial potential monetary benefits. Table 8
shows the potential monetary benefits for seven countries from using the


                                          26
PPP-indexed per diem rate for FY 2004 through July 2006. These data do not
include any claims processed by the TGRO contractor because it was using
summary procedure codes rather than detailed codes. As shown in Table 8, we
determined that TMA could have put more than $21 million of funds to better use
for the seven countries with the highest PPP savings during a 3-year period;
therefore, by implementing price caps on hospital inpatient charges, TMA could
annually put more than $7 million of funds to better.

  Table 8. Savings on Hospital Inpatient Claims From Using PPP-Indexed
 Price Caps: Top Seven Countries by Savings, FY 2004 Through July 20061
                                (in millions)

                                                                      PPP Savings
                                                                      as a Percent
                                                                       of Total
             Country2          Total Paid        PPP Savings3            Paid
        Panama                  $19.1                $7.9                41.4%
        Philippines4             12.3                 5.5                44.7
        United Kingdom           14.3                 4.1                28.7
        Germany                  84.4                 1.4                  1.7
        Mexico                     3.0                1.2                40.0
        Italy                      4.4                1.0                22.7
        Costa Rica                 1.4                0.5                35.7
          Total                $138.9               $21.7(5)             15.6%
    1
    We obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims can be
    submitted up to 1 year after the date of service. Therefore, the data cover all of FY 2004
    and parts of FY 2005 and 2006. As a result, our calculations of potential monetary benefits
    are conservative.
    2
    We did not evaluate the price caps for Puerto Rico using the PPP index because there are
    already price caps on professional services and hospital inpatient charges there. These rates
    have been established by the Centers for Medicare & Medicaid Services, and TRICARE
    has generally adopted these rates.
    3
    We calculated the PPP savings by first determining the PPP value for each country (by
    multiplying the national reimbursement rate by the PPP country index supplied by the
    World Bank’s International Comparison Program). We then compared the PPP value with
    the TRICARE-allowed amount for each procedure.
    4
    Because TMA implemented price caps on professional services in the Philippines in
    February 2004, the analysis was performed only on claims submitted on or after February
    2004.
    5
    The actual total is approximately $21.7 million. The rounded country amounts equal
     $21.6 million.



       Price Caps on Hospital Inpatient Charges in the Philippines. TMA
implemented a per diem system in September 2004 to limit the reimbursement of
Philippine hospital inpatient charges. However, the per diem system rates were
based on inflated claims of a third-party billing agency that accounted for
80 percent of the health care claims in the Philippines.


                                         27
           During a visit to the Philippines, we spoke with several hospitals and physicians.
           We obtained a price schedule for a heart bypass operation at one of the major
           hospitals in Metro Manila. The package included 10 days in a semi-private room
           and critical care unit for $9,125. The package included medicines; laboratory
           procedures; pulmonary procedures; scans; blood procedures; and professional
           fees of the cardiologist, cardiovascular surgeon, anesthesiologist, and
           pulmonologist. Under the current Philippine per diem system (as of August 1,
           2007), TMA would have reimbursed this care at $20,330 ($2,033 per day),
           $11,205 more than the package price schedule. Further, the hospital’s surgical
           package included the physician’s fees, whereas under the per diem system,
           physician fees would have required additional payments. Using the revised per
           diem rates approved by the Assistant Secretary of Defense (Health Affairs) and
           converting them with the PPP index should bring hospital inpatient prices more in
           line with what is customary and reasonable in the Philippines.

           TMA created the hospital inpatient per diem rates using actual claims data
           collected for a year in the Philippines. Table 9 shows four examples of the rate
           differences between the current and future per diem reimbursement systems.

                        Table 9. Current and Future Philippine Per Diem Rates

                                                        Current     Future
                                        Diagnosis         Per        Per
                                                         Diem       Diem*
                                       Tuberculosis      $614       $423
                                       Peptic Ulcer       680        432
                                       Kidney Stone      1385        453
                                       Asthma             922        419
                                   *
                                    Based on the second-year TMA Philippine PPP index factor of 0.229.

           As shown in Table 9, the future per diem rates will be lower. As shown in
           Table 8, TMA could have reduced its claims payments by more than $5.5 million
           per year in the Philippines if the PPP index had been used on hospital inpatient
           claims from FY 2004 through July 2006.14
                   Price Caps on Panama Hospital Inpatient Charges. As of August 1,
           2007, TMA generally paid claims in Panama for hospital inpatient charges in full
           as billed. However, in January 2007, the Assistant Secretary of Defense (Health
           Affairs) approved a plan to implement PPP-indexed price caps on hospital
           inpatient charges in Panama, a plan that is expected to be implemented in
           January 2008. We agree that TMA should implement price caps in Panama to
           institute more realistic reimbursement rates. We determined that TMA could
           have reduced its claims payments by more than $7.9 million (or 41 percent) if the
           PPP index had been used on hospital inpatient claims from FY 2004 through July
           2006 for Panama as shown in Table 8.

14
     We obtained data for FYs 2004 through 2006 from TMA in July 2006. Claims can be submitted up to
     1 year after the date of service. Therefore, the data cover all of FY 2004 and parts of FYs 2005 and
     2006. As a result, our potential monetary benefits are conservative.



                                                      28
        Price Caps on Hospital Inpatient Charges in Other Countries. We
believe TMA is moving in the right direction with implementing hospital
inpatient price caps in the Philippines and Panama. However, hospital inpatient
health care caps are also needed in countries with a high dollar value of claims
payments and countries with significant increases in health care costs. We
applied the PPP index to other countries in the Overseas Program and found a
need to better align prices. In addition to the Philippines and Panama, Table 8
shows TMA could have reduced its claims payments by more than $8 million
($21.7M - $7.9M - $5.5M) from FY 2004 through July 2006. TMA could have
reduced payments on claims in Costa Rica, Italy, Mexico, and the United
Kingdom by 36 percent, 23 percent, 40 percent, and 29 percent, respectively. The
application of the PPP index to hospital inpatient claims in Germany reduced
payments by only 1.7 percent. Therefore, it appears that the PPP index is in line
with current hospital inpatient claims in Germany.

TRICARE Global Remote Overseas Price Caps. The TGRO contractor was
not performing detailed coding or negotiating adequate fee schedules for TGRO
claims as required by the contract. We believe that, as TMA develops and
implements price caps, it should apply these price caps to TGRO. However, until
the TGRO contractor fully codes health care claims, applying such price caps will
be difficult. Further, in those countries where price caps are not established, the
lack of detailed coding prevents TMA from evaluating whether the TGRO
contractor is adequately containing costs, as discussed in finding A.

        Procedure Coding by the TGRO Contractor. The TGRO contractor
uses only 31 possible codes in processing TGRO claims for procedures, even
though more than 7,000 procedure codes are available. Therefore, we did not
include TGRO claims in much of our price cap analysis because the TGRO
contractor did not fully code claims, and any claims analysis relying on restricted
coding would have provided skewed results. The TMA Office of General
Counsel ruled in June 2007 that the existing contract required the TGRO
contractor to fully code claims. To determine the effect of the restricted coding,
we reviewed procedures coded as 15-minute office visits. According to TMA
TGRO claims data for FY 2004 through July 2006, there were 592 instances in
which a 15-minute office visit was billed at or above $500. These 592 instances
amounted to $794,068.71, averaging $1,341.33 per visit—more than
1,882 percent higher than the current Washington, D.C., CHAMPUS maximum
allowable charge (as of August 1, 2007) of $67.69. Using restricted coding
makes it difficult, if not impossible, to apply price caps or cost containment
measures. Additionally, meaningful analysis cannot be performed to identify
inflated claims and other improper billing practices.

        Fee Schedules Used by the TGRO Contractor. Fee schedules
negotiated between the TGRO contractor and two of the three hospitals used by
TRICARE beneficiaries in Panama City, Panama, had fees that were excessive.
Specifically, for one of the two Panama fee schedules that the TGRO contractor
negotiated, more than 87 percent of the procedures were priced higher than the
Washington, D.C., maximum allowable charges, and more than 73 percent were
higher than the Alaska maximum allowable charges, even though the PPP index
indicates that prices should be about 60 percent of the U.S. national average. For
example, the hospital charged $70 for an inpatient consultation, whereas the


                                    29
    Washington, D.C., charge was $39.33 and the Alaska charge was $47.94. Our
    review of the other hospital’s negotiated fee schedule showed that its fees were
    also well above the allowable charges in Alaska. For the seven procedures that
    exceeded $4,000, all were higher than the Alaska reimbursable amounts by at
    least 377 percent. We believe TGRO claims processed through the TGRO
    contractor should be subject to the same price caps that limit non-TGRO claims.
    Additionally, in countries where price caps are not implemented, TMA should
    periodically review the reasonableness of the TGRO contractor fee schedules.

    Reimbursement Limits in Guam and the U.S. Virgin Islands. TMA should
    apply Medicare and Medicaid-based reimbursement limits to Guam and the
    U.S. Virgin Islands. As previously mentioned, TMA develops many of its
    CHAMPUS maximum allowable charges based on those established by the
    Centers for Medicare & Medicaid Services. The Centers for Medicare &
    Medicaid Services has established reimbursement limits for the United States,
    Puerto Rico, Guam, and the U.S. Virgin Islands. According to TMA data,
    TRICARE paid claims totaling about $3 million each for Guam and the U.S.
    Virgin Islands between FY 2004 and July 2006. Using the Centers for Medicare
    & Medicaid Services’ rates for a 15-minute office visit, TMA could have reduced
    its allowed charges in Guam and the U.S. Virgin Islands by more than $400,000
    (63 percent) from FY 2004 through July 2006. We believe that TMA should treat
    Guam and the U.S. Virgin Islands as it does Puerto Rico and establish
    CHAMPUS maximum allowable charges.



Conclusion
    TMA should implement controls over claims for professional services and
    hospital inpatient charges using price caps rather than paying claims in full as
    billed. TMA also needs to ensure that all contractors processing overseas claims
    apply price caps and fully code claims. We applaud recent plans by TMA to
    revise Philippine price caps and establish price caps in Panama using a
    country-specific cost index (PPP index) and believe TMA should continue with
    the implementation of those price caps. However, we believe TMA should
    expand price caps to other countries with a high dollar value of claims payments
    and to other countries that have significant increases in health care costs. In
    countries that already have a structured, nationalized health care system, such as
    Germany, TRICARE could adopt the price cap structure already in place.
    However, if TMA chooses to use the foreign national health care system instead
    of the per diem system, it should require that overseas-claims-processing
    contractors understand the system and properly apply it. Additionally, all claims,
    including TGRO claims, for one country should be subject to the same price caps.
    Moreover, TMA needs to establish and use CHAMPUS maximum allowable
    charges for Guam and the U.S. Virgin Islands based on Centers for Medicare &
    Medicaid Services price caps in those countries—much as it has done for Puerto
    Rico. Implementing the recommendations in this finding could result in TMA
    annually putting at least $16 million of Defense Health Program funds to better
    use, totaling $96 million during the execution of the FYs 2008 through 2013
    Future Years Defense Plan.


                                        30
Management Comments on the Finding and Audit Response
Management Comments. The Assistant Secretary of Defense (Health Affairs) stated
that Table 4 does not address whether exchange rate fluctuation was considered with the
increases in claims payments.

Audit Response. We did not look at the differences caused by exchange rate fluctuation.
Table 4 provided a picture of increases over the past few years. For example, claims
payments in Singapore rose from about $604,000 in FY 2003 to $2.279 million in
FY 2005, a 277-percent increase. The statistics in Table 4 provide the reader with the
magnitude of some of the increases in health care costs in the Overseas Program. We did
not base our finding and potential monetary benefits on these statistics; rather we used
actual claim information (procedures and diagnosis codes) in the TRICARE claims
database.

The Assistant Secretary of Defense (Health Affairs) did not indicate concurrence or
nonconcurrence with the potential monetary benefits in relation to the finding. We
request that the Assistant Secretary of Defense (Health Affairs) comment on the potential
monetary benefits in response to the final report.


Recommendations, Management Comments, and Audit
  Response
       B. We recommend that the Director, TRICARE Management Activity:

              1. Proceed with the implementation of improved price caps on
       professional services and hospital inpatient charges in the Philippines.

       Management Comments. The Assistant Secretary of Defense (Health Affairs)
       concurred, stating that TRICARE is proceeding with implementing price caps in
       the Philippines. However, the Assistant Secretary stated an implementation date
       has not been determined.

       Audit Response. The Assistant Secretary’s comments satisfy the intent of the
       recommendation.

              2. Proceed with establishing price caps on professional services and
       hospital inpatient charges in Panama.

       Management Comments. The Assistant Secretary of Defense (Health Affairs)
       concurred, stating that TRICARE is proceeding with implementing price caps in
       Panama. However, the Assistant Secretary stated an implementation date has not
       been determined.

       Audit Response. The Assistant Secretary’s comments satisfy the intent of the
       recommendation.




                                           31
       3. Expand price caps in high-dollar-volume countries and countries
that have significant increases in health care costs.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred, stating that TRICARE will consider expanding price caps to other
countries as soon as it determines the impact of price caps in the Philippines and
Panama.

Audit Response. Although the Assistant Secretary of Defense (Health Affairs)
concurred with the recommendation, the comments are partially responsive
because the Assistant Secretary agreed only to consider price caps, not to
implement them. We understand that price cap schedules or the mechanics may
have to be adjusted, but price caps should be implemented in selected countries to
reimburse claims at prices that are customary and reasonable. We request that the
Assistant Secretary reconsider his position on Recommendation B.3. and provide
additional details and timeframes in response to the final report.

       4. Ensure that price caps apply to all foreign health care claims,
including TRICARE Global Remote Overseas beneficiary claims, and where
price caps are not implemented, periodically review the reasonableness of
both the fee schedules used by overseas contractors and the prices that
providers are charging for health care services.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred with the recommendation to apply price caps to payments for services
received by all beneficiaries including TGRO beneficiaries. The Assistant
Secretary stated that there may be an occasion to exceed the price cap amount
based on extenuating circumstances.

Audit Response. The Assistant Secretary’s comments satisfy the intent of the
recommendation.

      5. Develop and apply CHAMPUS maximum allowable charges for
Guam and the U.S. Virgin Islands based on Centers for Medicare &
Medicaid Services price caps used in those countries.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
did not concur or nonconcur, but stated that TRICARE will “explore” the
Medicare and Medicaid-based limits for Guam and the U.S. Virgin Islands.

Audit Response. The comments are partially responsive because the Assistant
Secretary agreed only to explore the use of Medicare and Medicaid-based limits.
We believe price caps are warranted for Guam and the U.S. Virgin Islands, and
the mechanics already exist without further exploration. Although the total
amount of health care claims in Guam and the U.S. Virgin Islands may have
totaled only $6 million in FY 2004 through July 2006, without price caps health
care costs could significantly increase. As shown in our prior audit report on
TRICARE Overseas claims (Report Number D-2006-051, “TRICARE Overseas
Controls Over Third Party Billing Agencies and Supplemental Health Insurance
Plans,” February 10, 2006), health care costs in the Philippines rose sharply from
$2.87 million in FY 1998 to $64.19 million in FY 2003 even though the number


                                    32
of TRICARE beneficiaries remained stable over that period. TMA did not begin
implementing price caps in the Philippines until February 2004. We request that
the Assistant Secretary reconsider his position on Recommendation B.5. and
provide additional details and timeframes in response to the final report.




                                   33
Appendix A. Scope and Methodology
   We conducted this performance audit in accordance with generally accepted
   government auditing standards from August 2005 through September 2007.
   Those standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives. We suspended the audit from October 2005 through April 2006 to
   assist the U.S. Attorney’s Office, Western District of Wisconsin.

   We met with TMA personnel in Alexandria, Virginia, and Aurora, Colorado, to
   gather information regarding the Overseas Program. We met with personnel from
   each of the three TAOs--Europe, Latin America and Canada, and Pacific--and
   personnel from the TRICARE Regional Office South. We met with contractors
   responsible for overseas claims processing including: WPS in Madison,
   Wisconsin; International SoS (ISOS) in Philadelphia, Pennsylvania; and Palmetto
   Government Benefits Administration (PGBA) in Florence, South Carolina, to
   document their claims-processing and reimbursement procedures. We discussed
   TRICARE eligibility requirements and beneficiary population statistics with
   Defense Manpower Data Center personnel. We met with personnel from the U.S.
   Army European Regional Medical Center and U.S. Air Force Europe to discuss
   overseas health care issues unique to the European region. We also visited
   participating hospitals, physicians, or third-party billing agencies in all
   three TRICARE overseas regions to gather information regarding their billing
   procedures for TRICARE-eligible beneficiaries. Specifically, we met with
   5 hospitals, a private insurance company, and the Philippine College of Surgeons
   in the Philippines; 6 hospitals, 5 physicians, and 3 third-party billing agencies in
   Panama; and 4 hospitals, 16 physicians, and 2 third-party billing agencies in
   Germany.

   We reviewed public laws, the Code of Federal Regulations, as well as DoD and
   TMA regulations to identify the procedures and requirements established for the
   Overseas Program related to claims submission, claims reimbursement, and price
   caps. Specifically, we reviewed the Code of Federal Regulations, Title 32,
   Chapter 2, Part 199.17, “Civilian Health and Medical Program of the Uniformed
   Services – TRICARE Program,” revised July 1, 2005, as well as TRICARE
   Policy Manual 6010.54-M, August 1, 2002; TRICARE Operations Manual
   6010.51-M, August 1, 2002; and TRICARE Reimbursement Manual 6010.55-M,
   August 1, 2002. We also reviewed supporting documentation submitted by
   providers and third-party billing agencies for TRICARE claims, contractor
   reimbursement data, and provider fee schedules. The dates of the documents
   reviewed ranged from April 26, 1996, to July 31, 2007.

   Use of Technical Assistance. We consulted the DoD OIG Quantitative Methods
   Division (QMD) for assistance in obtaining a population of episodes of care for
   Overseas Program claims and developing a stratified statistical random sample of
   the episodes of care. QMD also assisted the team in calculating potential
   monetary benefits using professional services and hospital inpatient price caps for
   selected overseas countries.


                                        34
Accuracy of Claims Payments. To test the accuracy of claims payments, we
used a statistical sample. In addition, during Phase One of this audit, we
reviewed about 600 claims submitted by Health Visions Corporation and
identified 6 claims for which the claims processor had made significant
overpayments. We included these claims in our Phase Two audit report but did
not include them in the statistical sample to determine the accuracy of payments,
nor did we include the six claims in estimates of potential monetary benefits.

        Statistical Sample. The audit team used a statistical sample to identify
the magnitude of inaccurate and duplicate payments for Overseas Program claims.
We requested and obtained TMA Purchased Care Detail Information System
(PCDIS) data for overseas care with dates of service from FY 2004 through July
2006. We provided these claims data to QMD for sample selection. Because the
data were collected in July of 2006 and TRICARE health care claims may be
submitted up to 12 months past the date of service, our audit results may not
reflect all claims submitted with dates of service within this time period,
especially for FY 2006. Therefore, we requested that QMD remove the partial
FY 2006 claims data from the statistical sample.

        The resulting population used to develop the statistical sample included
362,167 episodes of care equaling 428,775 claims for overseas care provided
from FY 2004 to FY 2005. QMD personnel selected the statistical sample based
on episodes of care. An episode of care involves one or more claims for care of a
single patient and has the same dates for the beginning and end of care. The use
of episodes allowed us to identify when multiple claims were filed and paid for
the same care. QMD divided the sample into four categories (Table A-1).

                        Table A-1. Categories (Strata)

                                                            Total Charge
                                                            Allowed by
                                                  Sample     TRICARE
Category of Episode      Episodes     Claims     Episodes   (in millions)
Single claim, more
than $100, less than
or equal to $1,000       261,213     261,213           58       $81.949

Multi claim, more
than $100, less than
or equal to $1,000         42,305     98,852           44         24.989

Single claim, more
than $1,000                50,766     50,766         160        189.515

Multi claim, more
than $1,000                7,883      17,944          85         39.885
  Total Scope            362,167     428,775         347       $336.338



                                    35
        We used the QMD statistical sample selection of 347 episodes
(526 claims) to gather claims documentation from WPS, ISOS, and PGBA, the
contractors responsible for claims processing. The statistical sample selection
excluded pharmacy claims and claims with less than $100 allowed per episode of
care. The amount allowed is determined by claims processors based on
TRICARE policy. Beneficiary copayments and deductibles are subtracted from
the allowed amount to calculate the amount payable to the beneficiary or the
provider. We analyzed paid claims for payment accuracy by comparing the
original provider bills of service with corresponding third-party claims, processor
documentation, PCDIS data, and TRICARE4U claims system data (where
applicable) to identify mathematical errors, potential duplicate payments,
noncovered administrative charges, and other overpayments. We did not review
claims for underpayments. We considered this approach conservative because
underpayments are also payment errors and would increase the error rate
identified by our statistical sample. We did not validate with beneficiaries that
the services billed were actually rendered.

       Methodology of Projections. QMD projected the number of episodes of
care and the corresponding dollar amounts when an inaccurate payment was made
from FYs 2004 through 2005. The projections were based on a 95-percent
confidence level. Table A-2 summarizes the projected value of all inaccurate
payments that were identified within the statistically sampled episodes. Table
A-3 shows the projected value of all nonduplicative inaccurate payments, and
Table A-4 shows the projected value of all duplicative inaccurate payments.

      Table A-2. Projected Value of Inaccurate Payments of All Types

                   Lower Bound      Point Estimate      Upper Bound
   Value             $6,486,432       $14,563,444        $22,640,455
   Episodes               7,936             39,429            70,830


                Table A-3. Projected Value of Overpayments
                   (Nonduplicative Inaccurate Payments)

                   Lower Bound      Point Estimate      Upper Bound
   Value             $1,841,835        $7,066,537        $12,291,239


       Table A-4. Projected Value of Duplicative Inaccurate Payments

                   Lower Bound      Point Estimate      Upper Bound
   Value             $1,311,446        $7,496,907        $13,682,368


        We assumed that the results from the 2-year statistical sample were
representative of annual inaccurate payments. We determined the annual amount
of inaccuracies by dividing the 2-year statistical sample results by 2. We obtained
the 6-year Future Years Defense Plan estimate for nonduplicative inaccurate
payments by dividing the point estimate shown in Table A-3 by 2 and then


                                    36
multiplying the annual nonduplicative inaccurate estimate by 6. We obtained the
6-year Future Years Defense Plan estimate for duplicative inaccurate payments by
dividing the point estimate shown in Table A-4 by 2, applying the actual
nonrecoupment rate of 38 percent as provided by the foreign-claims-processing
contractor, and then multiplying that annual duplicate inaccurate estimate by 6.
The nonrecoupment rate indicated that the foreign-claims-processing contractor
was unsuccessful in recouping 38 percent of duplicate payments in FY 2005 and
FY 2006.

Price Caps. During Phase One of this audit, we expressed concern that TMA
institutional price caps in the Philippines may have been too high. During Phase
Two we focused on identifying potential monetary benefits using revised
professional services and hospital inpatient price caps in the Philippines and other
countries. We requested and obtained TMA claims data for care provided outside
the United States from FY 2004 through July 2006. Because of the size of the set
of claims data, we requested the assistance of QMD personnel. QMD removed
TRICARE Global Remote Overseas claims from the data set because the
contractor did not use full coding and would have skewed the price cap analysis.
Different methodologies were used to analyze professional services and hospital
inpatient charges because of the layout of the data.

        Professional Services. We identified seven countries with the highest
amount of paid claims for professional services from FY 2004 to July 2006. For
each of the seven countries, we identified the 20 procedures with the highest
amount allowed. We examined the allowed amounts for each procedure rather
than paid because the data provided by TMA showed only allowed amounts by
procedure. Using the U.S. national CHAMPUS maximum allowable charge
obtained from TMA, personnel from QMD attached the national CHAMPUS
maximum allowable charge to each procedure in the data extract. We calculated
the PPP CHAMPUS maximum allowable charge for each procedure by
multiplying the national CHAMPUS maximum allowable charge by the country-
specific PPP index. We then compared the allowed amounts for the procedure
with the country-specific PPP-indexed CHAMPUS maximum allowable charge to
determine any differences. For Philippines claims, we reviewed claims that were
processed after the professional service price caps for that country were
implemented (February 1, 2004). If the allowed amount was more than the PPP
CHAMPUS maximum allowable charge would have been, then the PPP
CHAMPUS maximum allowable charge was subtracted from the allowed amount
to determine the difference. To determine the potential monetary benefits TMA
could achieve, we deducted 25 percent from the difference to account for the cost
share the retired beneficiaries are required to pay. Our estimate is conservative
because it assumes for each claim the beneficiary paid a 25-percent cost share,
even though this is not the case because beneficiaries do not have to pay cost
shares after they reach their out-of-pocket limit for the year (up to $3,000).
Further, TGRO beneficiaries do not pay cost shares. To determine the annual
potential monetary benefits, we divided the total amount by 3 years.

        Hospital Inpatient Claims. Personnel from QMD identified the patient
diagnosis code for each hospital inpatient claim in the TMA claims data. Using
the proposed U.S. national per diem system established by TMA, each hospital
inpatient claim was given a national per diem amount based on the three-digit


                                     37
    diagnosis. We applied the PPP index to the national per diem amounts to create
    country-specific per diem amounts. We then compared the amounts paid for each
    claim to the PPP-indexed country-specific per diem amount to determine the
    amount potentially overpaid, based on the developed price cap. If the amount
    paid was less than the PPP-indexed country-specific per diem amount, there were
    no potential monetary benefits calculated. If the amount paid was more than the
    PPP-indexed country-specific per diem amount, then the PPP-indexed country-
    specific per diem amount was subtracted from the amount paid to determine
    potential monetary benefits. For Philippines claims, we reviewed claims that
    were processed after the inpatient institutional price caps for that country were
    implemented (February 1, 2004). For each country, we added the potential
    monetary benefits to determine the amount of funds TMA could have put to better
    use. To determine the annual potential monetary benefits, we divided the total
    amount by 3 years.

    Because the data were pulled in July 2006, only 9 months of FY 2006 had passed.
    In addition, TMA allows claims to be submitted up to 1 year after care was
    provided. Therefore, the FY 2006 data had another 15 months and the FY 2005
    data had another 3 months to be considered a complete year. Also, the
    calculations did not include any TRICARE Global Remote overseas claims
    submitted by ISOS during this period. Thus, the potential monetary benefits
    using professional services and hospital inpatient price caps are conservative.

    We did not review pharmacy, air ambulance, or durable medical equipment price
    caps, unbundling of medical services, other health insurance payments, accuracy
    of cost shares, or duplicate DoD/Veteran Affairs payments because of time
    constraints and limited audit resources.

    Use of Computer-Processed Data. We used PCDIS claims data as a basis for
    our statistical sample to identify duplicate payments, overpayments, and other
    payment discrepancies, as well as for price cap analyses. To determine the
    adequacy of computer-processed data, we gathered and compared claims
    documentation with the information entered into PCDIS. For the 526 claims
    reviewed as part of our statistical sample, 519 (99 percent) matched the
    information in PCDIS. Most of the differences between PCDIS and the claims
    the company submitted could be explained and generally were not inaccuracies.

    Government Accountability Office High-Risk Area. GAO has identified
    several high-risk areas in DoD. This report provides coverage of the high-risk
    areas “DoD Financial Management” and “DoD Support Infrastructure
    Management.”


Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have issued 3 reports
    discussing TRICARE claims payment controls. Unrestricted GAO reports can be
    accessed on the Internet at http://www.gao.gov. Unrestricted DoD IG reports can
    be accessed at http://www.dodig.mil/audit/reports.


                                        38
GAO
      GAO Report No. GAO-05-773, Defense Health Care: “Implementation Issues for
      New TRICARE Contracts and Regional Structure,” July 27, 2005

      GAO Report No. GAO-04-69, Defense Health Care: “TRICARE Claims
      Processing Has Improved but Inefficiencies Remain,” October 15, 2003

DoD IG
      DoD IG Report No. D-2006-051, “TRICARE Overseas Controls Over Third
      Party Billing Agencies and Supplemental Insurance Plans Report,” February 10,
      2006




                                        39
Appendix B. TRICARE Overseas Payments
            Made by Check
   Overseas Program payments made by checks in the Philippines were stolen and
   subsequently altered. During the audit we notified TMA that, even though it has
   taken a number of steps in addressing the theft of TRICARE checks in the
   Philippines, it should explore using electronic funds transfer (EFT) when paying
   claims. As of August 2007, the TRICARE Policy Manual prohibits claims
   processors from using electronic means of claims payments in the Philippines.
   However, in May 2007 TMA requested the foreign-claims-processing contractor
   to explore using EFT when paying overseas claims.

   Electronic Payments. EFT is a system of transferring money from one bank
   account directly to another without any paper money changing hands. EFT can
   be routed from one bank to another bank or routed from one bank to an automated
   clearinghouse (ACH) then to the destination bank. The automated clearinghouse
   is a secure payment transfer system that connects financial institutions and holds
   payments while awaiting clearance at the final banking destination. ACH serves
   as validation for an EFT payment to ensure that there is permission from the
   payee for such a transaction and that funds are available as well as verification of
   the final banking destination. The utilization of ACH for EFT is an added layer
   of security that eliminates some of the processing fees typically charged in bank
   to bank transfers.

   TRICARE Payments Made by Checks. According to DCIS and TMA referrals
   submitted between February 2005 and June 2006, there were 44 payments stolen
   and/or altered and 30 submissions of false claims. One such altered payment was
   mailed to a provider for the amount of $256.50, but was changed to $7,256.50.
   The individual then added his name as payee on the check, and the check was
   cashed. The false claim submissions cited in the referrals were submitted by
   individuals acting as eligible beneficiaries, submitting claims for services not
   rendered. Each claim had a statement, such as, “Please forward payment to my
   new address because the hospital has been paid in full.” The new address was
   that of the suspect. Claims payments from these recurring issues cited in the
   referrals totaled more than $1.3 million, as shown in the table below.

                              Philippine Fraud Referrals


               Type                          Number           Amount
      Stolen or altered checks
       endorsed and cashed                     44            $583,092
      False Claims                             30              752,859
         Total                                 74           $1,335,951




                                        40
Currently, the TRICARE Policy Manual prohibits claims processors from using
electronic means of claims payments in the Philippines. Because TRICARE does
not have a secure method of delivery, we believe provider payments are still
prone to theft from the Philippines postal system.

The TRICARE foreign-claims-processing contractor recognized that claims
payments (checks) sent to providers and beneficiaries were being stolen and
altered. In an attempt to prevent the theft and alteration of payments, the
foreign-claims-processing contractor made several changes in how it sent
TRICARE checks to the Philippines. Specifically, the claims processor stated
that it began in:

   •   2002/2003 using regular white envelopes instead of business envelopes
       and handwrote its return address using an employee’s name to disguise the
       check;

   •   August 2004 sending payments in Philippine pesos destined for designated
       problem areas in the Philippines through a courier service, while payments
       in U.S. currency were sent through the postal system; and

   •   March 2006 sending beneficiary checks in U.S. currency through the
       courier service as well.

Despite these actions, payments continued to be stolen and altered. According to
the claims processor, between April and August of 2006, 56 checks were
delivered by the courier to two individuals who had photocopied the U.S.
identification cards of the intended beneficiary recipients and convinced the
courier they were authorized to take receipt of the checks.

Electronic Payment Initiatives. In May 2007, TMA requested the primary
TRICARE Overseas contractor to examine implementing the use of automated
clearinghouse payments for overseas claims, including those filed in the
Philippines. We believe TMA should continue to explore the use of electronic
funds transfer. Since 1996, the Department of Defense and other Federal
agencies have taken a number of actions to expand the use of electronic
payments. Specifically:

   •   The FY 2002 President’s Management Agenda included an initiative to
       promote expanding electronic government to reduce operating costs.

   •   Public Law 104-134, “The Debt Collection Improvement Act of 1996,”
       and section 3332, title 31, United States Code (31 U.S.C. 3332),
       “Required Direct Deposit,” January 3, 2005, require that Federal agencies
       generally make wage, salary, and retirement payments to beneficiaries
       using electronic funds transfer.

   •   DoD Regulation 7000.14-R, “Department of Defense Financial
       Management Regulations (FMRs),” Volume 7C, Chapter 7,
       November 2000, requires payments by EFT for all active duty, reserve,
       retired, and annuitant payments, unless the recipient states that he or she
       does not have a financial institution or authorized payment agent. The


                                    41
       regulation also states that all retirees, separated military personnel and
       Survivor Benefit Plan annuitants shall provide EFT information or certify
       in writing that they do not have a financial institution. However, those at
       an address in a foreign country where EFT is not available are exempt
       from the regulation until EFT becomes available.

   •   In February 2006, the Defense Financial and Accounting Service
       implemented the International Direct Deposit initiative to allow U.S.
       military retirees and annuitants living abroad to securely receive pay
       electronically to where they reside without wire transfer fees.

As of August 2007, the Defense Finance and Accounting Service implemented
the International Direct Deposit program in 43 countries including Germany,
Italy, Mexico, Panama, and the United Kingdom. Although the International
Direct Deposit program as of August 2007 does not include the Philippines, the
Social Security Administration reported in June 2007 that 99 percent of its
approximately 20,000 Philippine payments were sent electronically through U.S.
banks using direct deposit. The use of electronic funds transfer could prevent the
physical theft of TRICARE Overseas Program payments made by checks.




                                    42
Appendix C. Criteria
   In addition to criteria cited within the report, the following additional criteria
   apply to the Overseas Program.

   Code of Federal Regulations. Code of Federal Regulation, Title 32, Part 199.11,
   “Overpayments Recovery,” revised July 1, 2005, defines erroneous payments as
   expenditures of government funds which are not authorized by law. The
   legislation provides examples of erroneous payments including payments for care
   provided to an ineligible person, payment for care that is not an authorized
   benefit, payment for duplicate claims, and mathematical errors. This part also
   mandates collections of erroneous payments by administrative offset in every
   instance in which it is feasible, provided demand for payment has been sent to the
   debtor and remains unsatisfied after three attempts for collection.

   Code of Federal Regulation, Title 32, Volume 2, Part 199.14, “Provider
   Reimbursement Methods,” revised July 1, 2005, states that hospitals outside of
   the United States, the District of Columbia, and Puerto Rico are excluded from
   the normal payment system allowing the Director to determine the appropriate
   reimbursement method or methods to be used for covered medical services or
   supplies provided by institutional facilities outside the U.S. Additionally, this
   Regulation requires that reimbursement be the lower of the billed charge or the
   local CHAMPUS maximum allowable charge for covered medical services or
   supplies provided by noninstitutional facilities outside the U.S.

   Improper Payments Act. Public Law 107-300, “Improper Payments
   Information Act of 2002,” dated November 26, 2002, defines improper payments
   as any payment made: to ineligible recipients, for ineligible services, for services
   not received, or for any duplicate payment. This Act requires the head of each
   agency to perform an annual review to identify all programs and/or activities that
   may be susceptible to significant improper payments.

   TRICARE Manuals. The provisions of the TRICARE Policy Manual,
   TRICARE Reimbursement Manual, and TRICARE Operations Manual only
   apply to the Overseas Program when specifically stated in Chapter 12 of the
   Policy Manual or in the contract requirements.

           Policy Manual. TRICARE Policy Manual 6010.54-M, Chapter 12,
   “TRICARE Overseas Program (TOP),” August 1, 2002, outlines general guidance
   for overseas claims processing related to claims payments (including adjustments
   and recoupments), reimbursement, eligibility, claim audits, coding, and electronic
   fund transfers. The Policy Manual prohibits reimbursement for services
   specifically excluded under the TRICARE Program. The manual also states the
   foreign-claims-processing contractor shall not reimburse administrative charges
   billed separately on claims. Chapter 12, Section 11.1 states reimbursement of
   Philippine professional claims shall be the lower of the billed charges or the
   Puerto Rico CHAMPUS maximum allowable charges. Chapter 1, Section 34 of
   the TRICARE Reimbursement Manual states that hospital claims will be limited
   using a per diem system. Regarding electronic fund transfers, according to the



                                         43
Policy Manual, the contractor shall provide EFT payment to a U.S. or overseas
bank on a weekly basis upon provider request, except in the Philippines.

       Operations Manual. TRICARE Operations Manual 6010.51-M,
August 1, 2002, provides general guidelines related to duplicate claims, fraud,
and timeliness and accuracy. According to the Operations Manual, contractors
are expected to employ their own systems to prevent, detect, and resolve duplicate
payment conditions because TMA’s Duplicate Claims System is simply an
adjunct to contractor systems and detects and displays only the most common
duplicate conditions. Additionally, the Operations Manual requires that
contractors develop and maintain internal management controls necessary to
prevent theft, embezzlement, fraud, or abuse and ensure payment errors do not
exceed two percent of the total billed charges.

       Reimbursement Manual. TRICARE Reimbursement Manual
6010.55-M, August 1, 2002, provides the guidelines under which providers and
beneficiaries are reimbursed for health care services provided under TRICARE.




                                    44
Appendix D. Claims-Processing Contracts for the
            Overseas Program
Six contracts support the Overseas Program, with contractors processing more than
1 million overseas TRICARE claims per year. Most foreign claims are processed under
the TRICARE Managed Care Support Contract for the South Region. In addition to
traditional foreign claims (claims for health care provided to TRICARE beneficiaries
who reside overseas in nonremote locations except for active-duty Service members and
family and Medicare-eligible individuals living in Puerto Rico) processed under the
TRICARE South Region contract, an overseas claim may be processed under five other
contracts.


Managed Care Support Contracts
       There are three regional Managed Care Support Contracts, one for each of the
       North, South, and West regions of the United States. Each provides TRICARE
       health care coverage to eligible beneficiaries assigned to the corresponding region
       for care provided within the region or while the beneficiary is traveling or on
       temporary duty overseas. Claims originating from care provided overseas are
       processed and paid under the respective Managed Care Support Contract for the
       region in which the beneficiary resides following the guidelines outlined in
       Chapter 12 of the TRICARE Operations Manual. So, in addition to traditional
       foreign claims processed and paid under the Managed Care Support Contract,
       South Region, some Overseas Program claims may be processed and paid under
       the Managed Care Support Contracts.


TRICARE Global Remote Overseas Contract
       The TGRO Contract provides TRICARE coverage to active-duty Service
       personnel and their family members residing in remote overseas locations.
       TRICARE’s Global Remote Overseas Program includes 240 locations in
       143 countries worldwide. The TGRO contractor is responsible for providing and
       maintaining a credentialed provider network, negotiating rates with those
       providers, and managing beneficiary care referrals for these remote locations.
       The TGRO contractor receives and processes claims from overseas providers,
       remits payment to the provider, and then seeks reimbursement from TMA through
       submission of an electronic claim to the foreign-claims-processing contractor
       under the Managed Care Support Contract, South Region.


Puerto Rico Contract
       The Puerto Rico Contract provides a managed health care system for all
       active-duty Service personnel and their family members assigned to Puerto Rico.


                                           45
       The TRICARE Operations Manual defines Puerto Rico as a remote location. The
       contractor is responsible for providing and maintaining a credentialed provider
       network and managing beneficiary care referrals for Puerto Rico. The Puerto
       Rico contractor receives and processes claims from Puerto Rico providers, remits
       payment to the provider, and then seeks reimbursement from TMA through
       submission of an electronic claim to the foreign-claims-processing contractor
       under the Managed Care Support Contract, South Region. Under the Puerto Rico
       contract, the contractor is also responsible for transportation services and
       negotiation of reimbursement rates equal to or less than the CHAMPUS
       maximum allowable charge.


TRICARE Dual Eligible Fiscal Intermediary Contract
       The TRICARE Dual Eligible Fiscal Intermediary Contract covers the processing
       of all TRICARE claims for services rendered in the United States and in U.S.
       territories (Puerto Rico, Guam, the U.S. Virgin Islands, American Samoa, and the
       Northern Mariana Islands) to individuals who have dual eligibility under both
       TRICARE and Medicare. The contractor processes all dual eligible claims
       regardless of where the beneficiary resides. In general, TRICARE is the last
       payer after Medicare and any other coverage.

The type and location of the beneficiary determine jurisdiction over a specific claim. For
example, purchased care claims for active-duty Service members located in Puerto Rico
(an area designated as remote) are processed under the TRICARE Puerto Rico Contract,
while a retired Service member’s claim from Puerto Rico is processed under the
South Region subcontract for foreign claims. If, however, the retired Service member in
Puerto Rico is eligible for, and enrolled in Medicare, the claim is processed under the
TRICARE Dual Eligible Fiscal Intermediary Contract. Overseas health care claims for
active-duty Service members located in areas designated as remote (other than
Puerto Rico) are processed under the TGRO contract. Lastly, overseas health care claims
for beneficiaries who reside in the United States receiving health care while traveling
overseas (including Puerto Rico) are processed under the Managed Care Support
Contract for the region in which they reside (North, South, or West). Claims from all
other beneficiaries and locations overseas are considered traditional foreign claims and
are processed under the South Region subcontract for foreign claims.

While there are six contracts, there are seven claims-processing jurisdictions. Claims
from two jurisdictions (traditional foreign claims and claims from beneficiaries residing
in the TRICARE South Region who receive health care overseas) are processed and paid
under one contract, the Managed Care Support Contract, South Region.




                                           46
                           Table D-1. Overseas Program Contractors

                                                                       Prime
                      Contract                                       Contractor     Subcontractor
 TRICARE Puerto Rico                                                  HMHS             PGBA
 TRICARE Dual Eligible Fiscal Intermediary                             WPS             None
 TRICARE Global Remote Overseas                                        ISOS            None
 Managed Care Support Contract, South Region                          HMHS             PGBA
                                                                                       WPS*
 Managed Care Support Contract, North Region                           HNFS            PGBA
 Managed Care Support Contract, West Region                           TriWest           WPS

 * Subcontract for foreign claims

 Remote area claims, claims processed under the TGRO and PRC contracts, are processed
 in two steps. The TGRO and PRC contractors first process the claim for case
 management and cost containment, and then submit the claim to the MCSC-South
 subcontractor for reimbursement and creation of the official claim record into the
 Purchased Care Detail Information System (PCDIS). Table D-3 shows the total
 payments made to health care providers and beneficiaries and the associated
 administrative costs under the Overseas Program:

                           Table D-2. Overseas Program Payments*
                                        (in millions)

                                                FY 2005                           FY 2006
                                     Health         Administrative     Health        Administrative
       Jurisdiction                 Care Costs        Payments        Care Costs       Payments
CONUS Managed Care                       $0.5                $0.0           $3.2              $0.1
Support – North, South,
and West
TRICARE Global                           14.8                 8.0           21.2               9.7
Remote Overseas
Puerto Rico                               3.9                 2.4            5.1               4.4
TRICARE Dual                              6.4                 0.3            7.6               0.4
Medicare Eligible
All other foreign                       161.7                12.1          173.8              12.0

                    Totals             $187.3               $22.8         $210.9             $26.6

 *Excludes pharmacy contract payments for the Overseas Program.




                                                    47
Appendix E. Summary of Potential Monetary
            Benefits
Recommendation      Type of Benefit          Amount of Benefit     Account

     A           Funds Put to Better Use   Recurring benefits of  97X0130
                                           $4.95 million annually
                                           from minimization of
                                           erroneous payments
                                           including duplicates
                                           and overpayments
                                           ($29.70 million during
                                           execution of the
                                           FYs 2008 through
                                           2013 Future
                                           Years Defense Plan)


      B          Funds Put to Better Use   Recurring benefits of   97X0130
                                           $16 million annually
                                           from implementing
                                           overseas health care
                                           price caps
                                           ($96 million during
                                           execution of the
                                           FYs 2008 through
                                           2013 Future Years
                                           Defense Plan)




                                      48
Appendix F. Status of Management Comments
The following table shows the status of management comments on each of the
recommendations, potential monetary benefits, and internal control weaknesses. The
table includes management’s position, the audit determination of responsiveness of the
comments, and whether additional comments are requested.

                              Status of Management Comments



                                                          Audit Determination         Additional
                                                           of Responsiveness          Comments
                      Management Position                 of Planned Actions          Requested

Recommendation                          Not                            Nonresponsiv
  Number           Agree    Disagree   Stated     Fully    Partially        e         Yes    No

A.1.a.               X                             X                                         X

A.1.b.                         X                                            X         X

A.1.c.                         X                   X                                         X

A.1.d.                         X                                            X         X

A.1.e.               X                             X                                         X

A.1.f.               X                             X                                         X

A.2.                 X                             X                                         X

A.3.                 X                             X                                         X

A.4.                                     X         X                                         X

A.5.                 X                             X                                         X

A.6.                 X                             X                                         X

A.7.                 X                                        X                       X




                                             49
                      Status of Management Comments (cont’d)



                                                         Audit Determination         Additional
                                                          of Responsiveness          Comments
                        Management Position              of Planned Actions          Requested

Recommendation                           Not                          Nonresponsiv
  Number             Agree   Disagree   Stated   Fully    Partially        e         Yes    No

B.1.                  X                           X                                         X

B.2.                  X                           X                                         X

B.3.                  X                                      X                       X

B.4.                  X                           X                                         X

B.5.                                      X                  X                       X

Potential Monetary                        X                                X         X
Benefits

Management                                X                                X         X
Control Weaknesses




                                        50
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)
Director, Program Analysis and Evaluation

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          51
Assistant Secretary of Defense (Health Affairs)
Comments
                                                  Final Report
                                                   Reference




                       53
Final Report
 Reference




               54
     Final Report
      Reference




55
Final Report
 Reference




               56
     Final Report
      Reference




     page 31




     Document
     was
     provided
     separately
     and was not
     included in
     this report.




57
Final Report
 Reference




               58
     Final Report
      Reference




     page 21




59
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach II
Michael A. Joseph
Scott J. Grady
J. Steve Epps
Robin T. Parrish
Mandie L. Mahoney
Lynnell E. Whitehead
Ronica E. Palmer
H. David Barton
Allison E. Tarmann
